       Office Of inspectOr General
       U.S. Department of tranSportation




semiannual repOrt tO cOnGress
  October 1, 2009 – March 31, 2010
                                                            Table of Contents
From the Inspector General  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . iii
Audits and Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
           American Recovery and Reinvestment Act (ARRA) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
           Aviation and Special Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
           In Focus: Regional Air Carrier Safety  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15
           Highway and Transit Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 17
           In Focus: Ensuring Safety on the Dulles Corridor Metrorail Project  .  .  .  .  .  .  .  .  .  .  .  .  . 23
           Rail & Maritime Programs and Economic Analysis .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25
           Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27
           In Focus: Challenges in Securing Information Systems  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 31
           Aquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 35
           Department-Wide Issues  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41

Other Accomplishments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43
Work Planned and in Progress .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45
           Aviation and Special Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                             45
           Highway and Transit Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                              50
           Rail & Maritime Programs and Economic Analysis .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                         52
           Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                       55
           Acquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                           57

Statistical Performance Data  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 59
           Summary of Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 59
           Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 60
           Completed OIG Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 60
           OIG Reports with Recommendations that Questioned Costs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 61
           OIG Reports with Recommendations that Funds Be Put to Better Use  .  .  .  .  .  .  .  .  .  . 62
           OIG Reports Recommending Changes for Safety, Economy, or Efficiency  .  .  .  .  .  .  . 63
           Management Decisions Regarding OIG Recommendations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 64
           OIG Published Reports .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 65
           Office of Inspector General Congressional Testimonies  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 72
           Unresolved Recommendations Over 6 Months Old  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 73
           Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 75
           Judicial and Administrative Actions .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 75
           Profile of All Pending Investigations as of March 31, 2010  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 77

2009 Awards and Recognition  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 79
Mission and Organization  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 105
Contacts  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 108
                           From the Inspector General


I am pleased to present the Department of Transportation (DOT), Office of
Inspector General (OIG) Semiannual Report to Congress for the first half of fiscal
year 2010. Our audit and investigative work supports the Department’s goals
of safety, reduced congestion, global connectivity, environmental stewardship,
security, and organizational excellence. During the past 6 months, we issued 48
reports with a total of 188 recommendations, including financial recommendations
totaling over $800 million. Our investigative work resulted in 39 indictments,
31 convictions, and a total of nearly $19 million in fines, restitutions, and recoveries.
We continued to focus on significant aviation concerns, including safety oversight
and security at aircraft repair stations; oversight of on-demand operators; pilot
fatigue, training, and professionalism; air traffic control systems security; and Federal
Aviation Administration modernization efforts to enhance mobility and reduce air traffic
congestion through its Next Generation Air Transportation System. Four of the five
congressional hearings at which we testified this period were on air safety issues.
We also highlighted the need for critical surface safety improvements, including
the Federal Highway Administration’s oversight of its bridge inspection program
and funds provided to states to rehabilitate the Nation’s 200,000 deficient bridges.
Establishing a robust information security program to support the Department’s mission
also warranted continued scrutiny. Closing security gaps that make air traffic control
systems vulnerable to cyber attacks and securing personally identifiable information
continue to be concerns. The Department also needs to take action to strengthen its
acquisition oversight. Lengthy delays in suspension and debarment decisions are a
particular concern, especially given the billions of dollars to be awarded to projects
under the American Recovery and Reinvestment Act (ARRA) of 2009. These delays
give unscrupulous contractors ample opportunity to bid for and receive contracts.
We continued to aggressively pursue opportunities to ensure accountability, efficiency,
and transparency over DOT’s $48 billion in ARRA funds and remain committed to
promptly notifying DOT and Congress of actions needed to prevent fraud, waste, and
abuse in ARRA programs. In November 2009, we issued the results of our systematic
scans of agencies’ oversight of Recovery Act fund recipients. Since then, we have
initiated more than 10 audits and evaluations to further assess vulnerabilities we
identified in the scans. Some of these vulnerabilities require immediate attention
to mitigate a documented risk, while others require sustained focus to successfully
manage the large infusion of funds. As of the end of March, we have 33 open ARRA
investigations involving allegations of disadvantaged business enterprise violations;
false claims, statements, or certifications; conflict of interest; anti-trust violations; and
bid rigging, collusion, embezzlement, and prevailing wage violations. Twenty-three of
our 33 ARRA investigations have been accepted for prosecution by the Department of
Justice. Our investigators also conducted about 60 fraud and prevention awareness
briefings to more than 3,500 participants at all levels of government and industry.


                             Semiannual Report to Congress      iii
Our work reflects our strong commitment to provide in-depth analyses on key
transportation issues to serve and inform the public and congressional lawmakers.
I commend and thank the hard-working OIG staff for their outstanding efforts and
dedication to our mission. I would also like to commend Secretary LaHood for his
leadership and tireless efforts in these challenging times. I look forward to continuing
to work closely with him, his team, and modal administrators to provide Americans
with a 21st century transportation system that meets the national objectives of
general welfare, economic growth and stability, and the security of the United States.



Calvin L. Scovel III
                                                     Audits and Investigations




                                                          American Recovery and
                                                         Reinvestment Act (ARRA)


Audits                                                  ensure recipients complied with these require-
                                                        ments, ranging from conducting outreach to
October 6, 2009                                         recipients on the specific reporting requirements
                                                        to drafting processes for performing limited data
Status of Operating Administrations’                    quality reviews. At the time of our review, the
Processes to Conduct Limited Quality                    Federal Aviation Administration (FAA) and the
                                                        Federal Transit Administration (FTA) had drafted
Reviews of Recovery Act Recipient                       processes. The Federal Highway Adminstration
Data                                                    (FHWA), the Federal Railroad Administration
                                                        (FRA), and the Maritime Administration (MARAD)
The Office of Management and Budget (OMB)               aimed to have processes in place before con-
requires Federal agencies to review ARRA project        ducting their reviews.
data reported quarterly by fund recipients and
to notify recipients of material omissions and
                                                        Because it was too early to determine whether
significant reporting errors.
                                                        these processes would adequately identify
                                                        omissions and significant reporting errors, we
DOT’s five Operating Administrations (OA)               committed to continue our monitoring of the
overseeing ARRA implementation took steps to            OAs’ progress.




                                   Semiannual Report to Congress      1
November 30, 2009                                           Generating Economic Recovery (TIGER) grant
                                                            programs. We have continued our Recovery
DOT’s Implementation of the
                                                            Act-related audit and investigative work by drill-
American Recovery and Reinvestment                          ing down on high-risk areas that emerged during
Act: Continued Management Attention                         our scan.
Is Needed to Address Oversight                              February 19, 2010
Vulnerabilities                                             Letter to Senator Mark Pryor on DOT
Through systematic scans of DOT agencies’                   OIG’s Recovery Act Oversight Activities
oversight of Recovery Act fund recipients, we               Request from Senator Mark Pryor
identified vulnerabilities in four areas: (1) project
selection for existing programs, (2) project and
                                                            Senator Pryor asked us to report on our efforts
contract oversight for existing programs, (3)
                                                            to promote transparency and accountability in
new programs created by ARRA, and (4) new
                                                            the Department’s Recovery Act spending. At the
ARRA reporting requirements. Some vulner-
                                                            time of our report, we had conducted over 150
abilities required immediate action to mitigate
                                                            fraud prevention and awareness briefings with
a documented risk or to complete an identified
                                                            a total of more than 11,000 participants at all
task. Others require sustained focus due to their
                                                            levels of government and industry groups, and
complexity, size, or scope. During our agency
                                                            had issued 4 timely and thorough Recovery Act
scans, we also assessed DOT’s progress in car-
                                                            audit reports, 3 ARRA advisories, and a number
rying out the initiatives developed in response to
                                                            of reports with Recovery Act-related findings and
our March 2009 audit report, ARRA: Oversight
                                                            recommendations. We also reported that we had
Challenges Facing DOT.
                                                            11 audits and 36 investigations under way.

While conducting our scans, we provided ongoing
                                                            As of January 31, 2010, we received a total of
feedback to agencies to initiate timely corrective
                                                            215 Recovery Act-related allegations, 11 of
action. To ensure DOT provides effective over-
                                                            which were referred to us from the Accountability
sight of projects being constructed with ARRA
                                                            and Transparency Recovery Board. Of the 215
dollars and that remaining Recovery Act funds
                                                            allegations, 119 were not actionable (including
are prudently invested, we also recommended
                                                            2 from the Recovery Board) because they typi-
that the Department develop a plan to address
                                                            cally were not under DOT’s jurisdiction or did not
areas where action is needed. These areas in-
                                                            contain sufficient information. The remaining 96
cluded finalizing comprehensive workforce plans
                                                            were actionable allegations, ranging from waste
for all OAs, monitoring ARRA risk strategies, ad-
                                                            to embezzlement. The vast majority of allega-
dressing risks related to the quality of data being
                                                            tions concern FHWA programs.
reported to the public on program results, and
developing effective oversight strategies for the
                                                            Recovery Act oversight has comprised roughly
high-speed rail and Transportation Investment


                                       Semiannual Activities Section      2
10 percent of our total workload, and we ex-              key award and job elements. Surveyed agencies
pect the number of staff dedicated to this work           found several factors contributed to errors and
will remain constant through fiscal year 2011.            recipients’ failure to report, including misinter-
However, as states’ Recovery Act projects enter           pretation of guidance and technical challenges.
construction—a high-risk phase given the infu-
sion of dollars—and our attention to these risks          At the time of our review, OMB, the Recovery
intensifies, we expect spending to increase. (As          Board, and the Federal agencies reviewed had
of January 31, 2010, our total gross outlays on           taken certain actions to improve the quality of
Recovery Act work totaled $3.3 million.) Our              Recovery Act data. For example, the Recovery
cross-modal team of auditors, analysts, inves-            Board enhanced the automated recipient report-
tigators, engineers, and attorneys continues to           ing system to alert users of potential data errors.
examine areas presenting the greatest risks.              A majority of the seven Federal agencies surveyed
                                                          also stated that they developed or updated their
February 23, 2010                                         tools to electronically check for significant errors
Recovery Act Data Quality: Errors                         or anomalies. Finally, all seven agencies stated
                                                          that they have, at a minimum, updated their guid-
in Recipients’ Reports Obscure                            ance on Recovery Act reporting requirements.
Transparency
Lead on Recovery Accountability and Transpar-             We noted, however, that further action would be
ency Board Review of Data Transparency at                 needed to meet the level of accountability called
Selected Agencies                                         for in the Recovery Act. Of particular concern
                                                          is the need for timely and executable reporting
The Offices of Inspector General at the Depart-           guidance from OMB, continued enhancements
ments of Defense, Education, Health and Human             to the recipient reporting system by the Recovery
Services, Justice, Interior, and Transportation,          Board, and continued outreach and improved
and the General Services Administration (GSA)             data quality review processes from Federal agen-
conducted a review to (1) assess data in Recov-           cies. Coordination and heightened vigilance will
ery Act recipients’ first cycle reports and identify      be critical to addressing these concerns.
factors that may have contributed to identified
data errors and omissions and (2) determine ac-
tions taken by agencies, OMB, and the Recovery
Board to improve the quality of the data recipi-
ents submit in future reporting cycles.

For each of the seven agencies reviewed, there
were a number of inaccuracies in the data that
ARRA fund recipients provided for the first re-
porting cycle. The most prevalent errors were in


                                     Semiannual Report to Congress      3
Investigations                                                  and 3 with FTA. The investigations involve al-
                                                                legations of disadvantaged business enterprise
October 1, 2009—March 31, 2010                                  violations; false claims, statements, or certifica-
                                                                tions; conflict of interest; anti-trust violations;
During this 6-month reporting period, our investi-              and bid rigging, collusion, embezzlement, and
gations staff conducted 60 fraud prevention and                 prevailing wage violations. Twenty-three of our
awareness briefings with a total of more than                   33 ARRA investigations have been accepted for
3,500 participants at all levels of government                  prosecution by the Department of Justice. Table
and industry groups. As of the end of March                     1 provides the number of open investigations by
2010, we have 33 open ARRA investigations, of                   OA and allegation.
which 26 are associated with FHWA, 4 with FAA,




             Table 1: Disposition of Open ARRA Investigations, as of March 31, 2010
                Allegation                                               FHWA       FTA         FAA
                False Statements, Claims, Certifications                    12        0           1
                Anti-Trust Violations, Bid Rigging, Collusion                4        0           1
                Disadvantaged Business Enterprise Fraud                      6        2           2
                Conflict of Interest                                         1        0           0
                Prevailing Wage Violations                                   2        1           0
                Embezzlement                                                 1        0           0
                Total                                                       26        3           4




                                         Semiannual Activities Section    4
                                              Aviation and Special Programs

Audits                                                 unfinished testing, and controller/airline issues.
                                                       Other initiatives face challenges, such as special
October 21, 2009                                       equipment and training requirements or litigation,
                                                       or are part of nationwide FAA programs that will
Status of the Aviation Rulemaking                      not be completed until 2012 or later.
Committee’s 77 Initiatives for
                                                       While FAA has begun addressing these issues,
Reducing Delays in the New York Area                   much work remains to be done. We recom-
Request from the Chairman of the House Sub-            mended that FAA (1) assess completed and re-
committee on Aviation                                  maining initiatives to determine whether they are
                                                       providing benefits or should be discontinued or
In response to the Subcommittee’s concerns             recategorized; (2) resolve technical, operational,
about the effectiveness of efforts to reduce           and controller/airline issues affecting many of the
delays at New York airports, we examined FAA’s         initiatives reported as completed; and (3) fully
progress in implementing 77 initiatives of the         operationalize the Integration Office’s New York
New York Aviation Rulemaking Committee. We             Area Delay Reduction Plan and Schedule. FAA
found that while FAA reported many of these            generally concurred with our recommendations.
initiatives as complete, most are not being used
or are used infrequently due to limited tacti-
cal need, operational and technical problems,



                                   Semiannual Report to Congress      5
October 28, 2009                                          ate action and establish a 5–year funding profile
                                                          for the NextGen mid–term, (2) establish metrics
Actions Needed to Meet Expectations
                                                          for assessing and measuring progress, and (3)
for the Next Generation Air                               develop and implement a strategy for linking
Transportation System in the                              near- and mid-term efforts with the Agency’s
                                                          long-term plans for transforming the National
Mid–Term                                                  Airspace System.
Testimony before the House Committee on
Transportation and Infrastructure, Subcommittee           November 2, 2009
on Aviation
                                                          Review of FAA’s Progress in Enhancing
The Next Generation Air Transportation Sys-               Air Traffic Control Systems Security
tem (NextGen) represents a transition from a              Self-Initiated
ground-based air traffic control system to a
satellite-based air traffic management system.            Homeland Security Presidential Directive 7 des-
When fully implemented, NextGen is expected               ignates air traffic control systems as part of the
to significantly enhance capacity, reduce delays,         Nation’s critical infrastructure due to the impor-
and provide economic and environmental ben-               tant role commercial aviation plays in fostering
efits through reductions in carbon emissions,             and sustaining the national economy and ensur-
fuel consumption, and noise. NextGen is a high            ing citizens’ safety and mobility. The Secretary of
risk effort and a top management challenge for            Transportation is responsible for ensuring that air
the Department and FAA. The Inspector General             traffic control facilities, systems, and operations
testified on operational and management issues            are protected from significant disruption caused
that must be addressed to successfully transi-            by man-made or natural events and are able to
tion to NextGen and implement recommenda-                 resume essential services in a timely manner if
tions made by a joint government/industry task            disrupted.
force. The task force’s recommendations focus
on what FAA needs to achieve in the near- and             To determine FAA’s progress in correcting se-
mid-term—actions that FAA endorsed and are                curity weaknesses previously identified in the
consistent with our work. These include maxi-             air traffic control (ATC) system, we assessed
mizing the benefits of performance-based navi-            (1) the status of Business Continuity Plan (BCP)
gation initiatives and managing NextGen efforts           implementation and (2) the enhanced methodol-
as integrated portfolios of investments.                  ogy used in the certification and accreditation of
                                                          air traffic control systems security at operational
To move beyond endorsing the task force’s rec-            sites. FAA made good progress in preparing the
ommendations, the Inspector General stated that           Technical Center to serve as the recovery site; yet
FAA must set realistic expectations for NextGen.          several unresolved technical challenges, staffing
Specifically, FAA must (1) develop plans to initi-        issues, and funding requirements could delay



                                     Aviation and Special Programs    6
recovery site readiness. Further, while FAA has           repair stations remain open. Successfully
enhanced the process of reviewing ATC systems             implementing these recommendations would
security, the reviews were not properly carried           allow FAA to identify and target repair facilities
out to ensure security protection of operational          in need of safety oversight as well as meet its
ATC systems.                                              statutory mandate to provide the Transportation
                                                          Security Administration with information needed
We made a series of recommendations to help               to improve security oversight.
FAA implement a fully functional BCP and
strengthen its ability to protect operational ATC         January 11, 2010
systems.                                                  Letter to Senator Claire McCaskill
November 18, 2009                                         Regarding FAA’s Progress
Actions Needed to Improve Safety                          in Implementing Past OIG
Oversight and Security at Aircraft                        Recommendations to Improve
Repair Stations                                           Oversight of Outsourced Maintenance
                                                          Request from Senator Claire McCaskill
Testimony before the House Committee on
Homeland Security, Subcommittee on Transpor-
tation Security and Infrastructure Protection             In response to Senator McCaskill’s request, we
                                                          reported that FAA completed action on 7 of the
                                                          23 recommendations we made in 2003, 2005,
Air carriers’ use of repair stations has risen dra-
                                                          and 2008.
matically in the last several years—both in the
volume and type of repairs outsourced. Since
2003, we have reported that FAA’s oversight               While this represents progress, FAA has not
of aircraft repair facilities is not robust enough        addressed the most significant—and longstand-
to ensure that outsourced repairs meet FAA                ing—recommendations to identify repair stations
standards. The Inspector General testified on             performing safety-critical repairs and repair sta-
key concerns identified through our work—                 tions air carriers use most often. In December
specifically, that FAA does not know where all            2009, FAA provided our office with information
critical outsourced repairs are performed for             indicating it has developed new guidance, which
both certificated and non-certificated facilities.        it believes will address this issue and a total of
Instead, it relies heavily on air carriers’ oversight     8 of the remaining 16 recommendations. We
of repair stations—even air carriers with known           are encouraged by this development but will
quality assurance problems.                               reserve our determination on whether to close
                                                          any recommendations until we have thoroughly
                                                          analyzed FAA’s proposed actions.
Several OIG recommendations aimed at improv-
ing FAA’s oversight of foreign and domestic



                                      Semiannual Report to Congress      7
February 4, 2010                                           maintenance-related allegations and highlighted
                                                           several incidents. The complaint also included
Progress and Challenges with FAA’s
                                                           allegations of unacceptably high levels of
Call to Action for Airline Safety                          maintenance deferrals, performance of required
Testimony before the House Committee on                    aircraft inspections by non-qualified personnel,
Homeland Security Subcommittee on Transpor-                and failure to perform inspections called for in
tation Security and Infrastructure Protection              an aircraft manufacturer’s service bulletin. At
                                                           least 4 of the 10 allegations were found to be
Following hearings on the February 2009 Colgan             valid. Specifically, FAA failed to assess systems
Air accident, FAA developed an Airline Safety              for monitoring air carrier maintenance programs,
and Pilot Training Action Plan—a Call to Action            identify root causes of maintenance deferrals,
Plan to improve airline safety and address pilot           ensure properly trained mechanics performed
workforce issues. The plan is a good first step,           certain required inspections, and ensure prompt
but as the Inspector General testified, FAA’s              responses to safety recommendations and ser-
progress in implementing the plan’s initiatives            vice bulletins. In addition, FAA’s internal reviews
has been slow—specifically, those related to               of the allegations were not comprehensive. As
pilot fatigue, training, and professionalism and           a result, FAA missed opportunities to identify
efforts to strengthen air carriers’ voluntary safety       potential maintenance issues and put corrective
programs.                                                  actions in place.

At the request of Congress, we are reviewing               We recommended several actions to enhance
other pilot performance issues to determine their          FAA’s oversight in key maintenance areas at
potential impact on safety. These include pilot            American—such actions could improve FAA’s
domicile, differences in pilot training and hiring,        maintenance oversight at other air carriers as
and pilot experience and pay.                              well as its processes for assessing industry-wide
                                                           safety allegations. FAA generally concurred with
February 16, 2010                                          the recommendations; however, many of the
                                                           actions FAA has taken are still under way. There-
FAA’s Oversight of American Airlines’
                                                           fore, OIG has requested additional information to
Maintenance Programs                                       validate that the issues identified have been fully
Request from the House Committee on Trans-                 addressed.
portation and Infrastructure

We reported that FAA’s oversight lacks the rigor
needed to identify the types of issues identified
in a February 2008 complaint against American
Airlines regarding the overall operational reli-
ability of its aircraft. The complaint included 10



                                      A
                                      Aviation
                                       viation and Special Programs    8
March 4, 2010                                           March 17, 2010
New Approaches Needed In                                FAA’s Oversight of On-Demand
Managing PHMSA’s Special Permits                        Aircraft Operators
and Approvals Program                                   Testimony before the House Committee on
Self-Initiated                                          Transportation and Infrastructure, Subcommittee
                                                        on Aviation
Many hazardous materials are transported under
the terms of special permits and approvals,             Unlike large commercial carriers, on-demand
which provide relief from the Hazardous Materi-         flights often operate at altitudes that are vulner-
als Regulations if certain conditions are met. We       able to terrain and weather hazards and utilize
evaluated the effectiveness of the Pipeline and         small airports without air traffic control towers or
Hazardous Materials Safety Administration’s             emergency equipment. National Transportation
(PHMSA) (1) policies and processes for review-          Safety Board (NTSB) statistics show that higher
ing and authorizing special permits and approv-         risks have translated into more accidents for
als, (2) coordination with the affected OA before       on-demand operators. However, FAA’s oversight
issuing any of these special authorizations, and        of this industry is primarily based on compliance
(3) oversight and enforcement of approved par-          with outdated regulations that are less rigorous
ties’ compliance with the terms and conditions          than those for large commercial carriers in key
of these authorizations.                                areas, such as flight crew training requirements
                                                        and aircraft maintenance inspections. Our review,
                                                        requested by the Subcommittee, found that a
Our review identified serious deficiencies in
                                                        targeted, risk-based oversight approach could
each of these areas. Specifically, PHMSA is-
                                                        help mitigate many safety issues associated with
sued special permits and approvals without
                                                        on-demand operations. To shift to a risk-based
adequately reviewing applicants’ safety histories
                                                        oversight model, FAA will need to overcome sev-
and proposed level of safety or coordinating with
                                                        eral challenges, including ensuring it has enough
the affected OAs. PHMSA also does not con-
                                                        inspectors with the right skills and sufficient data
duct regular compliance reviews of individuals
                                                        to oversee this diverse industry.
and companies who have been granted special
permit and approvals. PHMSA has developed
action plans to address our concerns, and we
will be monitoring its actions to ensure that each
problem we raised is addressed.




                                    Semiannual Report to Congress      9
Investigations                                            Force Office of Special Investigations; Federal
                                                          Bureau of Investigation (FBI); and Department
                                                          of Homeland Security/U.S. Immigration and
Investigation into Fraudulent Aircraft                    Customs Enforcement, with FAA providing tech-
Parts Manufacturing Scheme Nets                           nical assistance.
Over $1.3 Million in Restitution
                                                          October 14, 2009
Operation Wingspan is an ongoing investigation
                                                          Man Pleads Guilty to Illegal
into the fraudulent manufacture, distribution,
and sale of military and civilian aircraft parts by       Transportation of Hazardous
brokers, manufacturers, and repair station own-           Materials
ers throughout Florida who were not approved to
do so by FAA or Department of Defense (DOD).              Pedro Rafael De Peña De La Cruz, pled guilty
These aircraft parts include skins, wings, and            on October 14, in U.S. District Court, San Juan,
control surfaces for various aircraft including           Puerto Rico, to a charge of illegal transportation of
the U.S. Military version of the Boeing 707/320           hazardous materials (HAZMAT). In August 2009,
commercial airframe, which are used for the               Mr. De Peña De La Cruz’ attempted to fly to the
U.S. Air Force’s (USAF) E-3 Sentry, Airborne              Dominican Republic on an American Eagle flight
Warning and Control System, and the KC-135                with a checked bag containing approximately 20
Airborne Refueling Aircraft. In most cases, these         pounds of mercury. A Transportation Security Ad-
manufacturers did not sell directly to the USAF           ministration screener discovered a discharge of
but instead sold to various brokers or authorized         mercury from Mr. De Peña De La Cruz’s checked
DOD contractors who conspired with them to sell           bag, which prompted the evacuation of several
the substandard aircraft parts to the USAF. In            passenger terminals for 8 hours and the diver-
cases where the customer required supporting              sion of numerous commercial airline flights. Mr.
FAA authorization documents, brokers further              Peña De La Cruz did not inform airport security
conspired with FAA repair stations to falsify FAA         personnel that he was transporting mercury prior
forms, giving the illusion that the manufactured          to it having been discovered. DOT regulations
parts had been approved by FAA and were suit-             classify mercury as a hazardous material.
able for installation on an aircraft. Thus far this
investigation has resulted in the execution of 9          This investigation was conducted jointly with the
search warrants; indictment of 6 individuals,             FBI and with technical assistance from FAA.
all of whom have pled guilty; and sentencings
culminating in 6 years imprisonment and $1.3
million in restitution.

This investigation is being conducted jointly
with Defense Criminal Investigative Service; Air



                                     A
                                     Aviation
                                      viation and Special Programs    10
November 13, 2009                                        aircraft in an effort to load extra fuel onto the
                                                         aircraft, a practice that endangered the safety
Pilot for Florida Charter Jet Company
                                                         of the aircraft and passengers on-board. The
Indicted in Connection with Plane                        investigation determined that the scheme involv-
Crash at New Jersey Airport                              ing fraudulent weight and balance calculations
                                                         directly contributed to the 2005 crash.
On November 13, John Kimberling and co-
defendants Michael F. Brassington, Paul Brass-           In addition to the five defendants named in the
ington, Brian L. McKenzie, and Francis A. Vieira         superseding indictment, two other defendants
were charged via superseding indictment in U.S.          have already pled guilty to related charges.
District Court, Newark, New Jersey, with con-
spiracy, false statements and destruction of an          December 4, 2009
aircraft. These charges stem from their alleged
involvement in events culminating in a 2005
                                                         Former Hazardous Materials
plane crash at Teterboro Airport in New Jersey.          Handler Sentenced to 18 Months
Mr. Kimberling, the pilot of the crashed plane,          Imprisonment and Ordered to Pay
is the seventh defendant to be charged in this
case.                                                    $211,000 in Restitution
                                                         Luis D. Ruiz, a former hazardous materials
On February 2, 2005, a small corporate jet (Cana-        handler for Bombardier Aerospace (Bombardier)
dair Challenger CL 600 aircraft, N370V) operated         was sentenced on December 4, to 18 months
by Platinum Jet Management (Platinum), Fort              imprisonment, 3 years supervised release, and
Lauderdale, Florida, while attempting to take-off,       ordered to pay $211,000 in restitution in U.S.
over-ran the departure end of the airport, crossed       District Court, Peoria, Illinois, for his involvement
a heavily-traveled six–lane roadway, and crashed         in a stolen aircraft parts scheme.
into a warehouse. The aircraft was carrying pas-
sengers at the time.
                                                         Between October 2006 and November 2008, Mr.
                                                         Ruiz was involved in a scheme to steal an esti-
A subsequent DOT-OIG criminal investiga-                 mated $416,232 worth of aerospace parts from
tion revealed that Platinum, owned by Michael            Bombardier, a warehouse logistics facility, which
Brassington, and the above listed defendants             stores aerospace spare parts. Mr. Ruiz sold the
conspired to defraud DOT by engaging in a                stolen parts, including altimeters, attitude indi-
scheme to fraudulently operate charter flights           cators, and a microphone, on an Internet auction
in violation of the Federal Aviation Regulations.        site. The parts in question are used in commer-
The defendants also conspired to alter the weight        cial aviation and their serial numbers were traced
and balance configurations for several Platinum          back to Bombardier.




                                    Semiannual Report to Congress      11
December 4, 2009                                           lage inspection had passed, without the required
                                                           check. The PMI permitted and encouraged SWA
Former Florida Repair Station
                                                           to formally self-disclose the violation through its
Owner Sentenced to 12 months                               Voluntary Disclosure Reporting Program (VDRP),
Imprisonment                                               a partnership program with FAA that would allow
                                                           the airline to avoid any penalties. SWA made the
Saeid Ebied, former owner of Air Electronic                disclosure and indicated that it came into compli-
Corporation (AEC), a certified FAA repair station,         ance with the AD, meaning it had inspected or
was sentenced on December 4, to 12 months                  grounded all affected aircraft. In fact, the airline
imprisonment and 3 years supervised release in             had not done so, continuing to operate the aircraft
U.S. District Court, Southern District of Florida,         for 8 days after the carrier had notified FAA. Under
Fort Lauderdale, for making false statements               the Federal Aviation Regulations the aircraft were
and failure to appear. This investigation revealed         considered unairworthy and were required to be
that AEC had repaired and returned aviation                grounded until the inspections could occur.
parts to service at the direction of Mr. Ebied for
which the company was not authorized. Prior to             We further found that an FAA Partial Program Man-
pleading guilty, Mr. Ebied fled to Egypt. He was           ager, who was subordinate to the PMI, was aware
later indicted by a Federal grand jury for failure         the aircraft were not in a safe condition, but did
to appear and was arrested when he returned to             not question the PMI as to why he did not require
the United States.                                         SWA to ground the aircraft, nor did he report the
                                                           safety issue to other FAA managers. Additionally,
December 28, 2009
                                                           we determined that officials in the FAA’s South-
FAA Principal Maintenance Inspector                        west Region failed to correct documented, long-
                                                           standing systemic problems at the SWA Certificate
Permitted Commercial Aircraft to                           Management Office (CMO), thus creating a serious
Operate in Unsafe Condition                                lapse in regulatory oversight, and needlessly plac-
                                                           ing the flying public at risk.
Our investigation found that an overly collaborative
relationship between Southwest Airlines (SWA)
                                                           Based on our findings, we recommended to FAA
and FAA’s Principal Maintenance Inspector (PMI)
                                                           that it implement a series of management controls
enabled the airline to violate FAA national policy
                                                           to strengthen CMO oversight of carriers nationwide
and regulations regarding the maintenance of
                                                           and preclude recurrence of the kind of improprieties
aircraft. Specifically, we determined that the PMI
                                                           that occurred in this matter. Our eight recommen-
knowingly allowed SWA to continue to operate,
                                                           dations to FAA included implementing controls over
in passenger revenue service, 46 aircraft, carrying
                                                           the VDRP process, such as implementation of a
an estimated 145,000 passengers, in an unsafe
                                                           second-level review of decisions made by inspec-
or unairworthy condition after the inspection date
                                                           tors to accept or close voluntary self-disclosures,
for an Airworthiness Directive(AD)-mandated fuse-
                                                           and that inspectors conduct effective follow-up of



                                      A
                                      Aviation
                                       viation and Special Programs    12
self-disclosures by verifying that air carriers take        January 29, 2010
comprehensive corrective actions. We also recom-
                                                            Lapses Led to FAA Failure to Pursue
mended that FAA devise a system for tracking and
monitoring inspections that will alert local, regional      Enforcement Action and Regulatory
and Headquarters management whenever an in-                 Review of Colgan Air
spection is overdue; and that FAA create a national
review team to conduct periodic quality assurance           Our investigation revealed that a Colgan Air pilot,
reviews of FAA’s oversight of air carriers.                 in violation of Federal Aviation Regulations (FARs),
                                                            twice exceeded the airframe airspeed limitation
January 21, 2010                                            during proving runs of one of Colgan’s new Dash
                                                            8 aircraft. The pilot also violated FAR by failing to
Owner of New Jersey Public Airport                          record these events in the aircraft’s maintenance
Ordered to Pay $372,000 Restitution                         logbook. Moreover, FAA’s Washington Flight Stan-
for Theft of FAA AIP Grant Program                          dards District Office (FSDO) in Herndon, Virginia
                                                            did not pursue enforcement action against the pilot
Paul George Styger, owner of a local public use             or Colgan because its inspector aboard the aircraft
airport in Sussex County, New Jersey (Sus-                  did not follow required reporting and notification
sex Airport, Inc.,) was sentenced to 2 years                procedures, and its Certificate Management Team
probation on January 21, in U.S. District Court,            supervisor failed to properly investigate the events.
Newark, New Jersey, based on his guilty plea to             Finally, the investigation found that the Washington
one count of theft in connection with embezzling            FSDO had not conducted an assessment of Col-
more than $378,000 in FAA airport improvement               gan’s Aircrew Designated Examiner (ADE) program
program (AIP) grant funds. Mr. Styger, as owner             since 2002, even though the assessment is re-
of Sussex Airport, Inc. (SAI), applied for and              quired every three years. Under the ADE program,
received approximately 6 FAA AIP grants totaling            select pilots are authorized by FAA to conduct pilot
more than $3.1 million to perform improvements              certification examinations.
at the Sussex airport. Mr. Styger failed to forward
funds provided by the FAA to contractors who                March 22, 2010
had completed improvements to the airport.
                                                            Former FAA Tech Pleads Guilty to Theft
As part of his sentencing, Mr. Styger was also
ordered to make restitution in the amount of                of $2.8 Million in Government Property
$372,233.57 to the contractors who where never
                                                            Steven Smith, former FAA field technician, pled
paid for their work. Mr. Styger and SAI have
                                                            guilty on March 22, in U.S. District Court in Tacoma,
been debarred from government contracting by
                                                            Washington, to one count of wire fraud and theft of
the FAA for a period of 3 years. This investiga-
                                                            honest services for his role in a scheme to steal
tion was conducted with the assistance of the
                                                            Federal property valued in excess of $2.8 million.
Sussex County Prosecutor’s Office and the
                                                            Mr. Smith faces up to 54 months in prison.
FAA.



                                       Semiannual Report to Congress      13
This investigation was initiated as a result of a        $400,000. Many of these items later ended up
referral from GSA, Office of Inspector General           in Mr. Smith’s half-brother’s possession. His
alleging that Mr. Smith used the GSA excess              half brother, Brad Garner, was sentenced to 54
property website to transfer ownership of a              months imprisonment for his role in the afore-
44-foot sailboat from GSA’s excess property              mentioned scheme.
inventory to DOT, despite having no authority to
do so. Subsequent investigation determined Mr.           This investigation was conducted jointly with the
Smith stole the sailboat, and that he had used the       GSA/Office of Inspector General, Naval Criminal
GSA excess property website to steal 200-plus            Investigative Service, Defense Criminal Investi-
other items, including a Cessna 210; two 27-foot         gative Service, Army Criminal Investigation Divi-
Boston whalers; and a yacht valued at more than          sion, and the FBI.




                                    Aviation and Special Programs      14
                 In Focus: Ensuring Regional Air Carrier Safety


R    egional air carriers represent one half of all
     scheduled commercial flights across the
country and provide the only scheduled airline
                                                          This past February, at a hearing convened by
                                                          the House Transportation and Infrastructure
                                                          Subcommittee on Aviation, we testified that FAA
service to more than 400 American communi-                has made little progress in implementing plan
ties. FAA regulations call for one level of safety        initiatives with the greatest potential to improve
for all air carriers—both regional and mainline.          safety.1 These initiatives include issuing new rules
However, the February 2009 crash of Colgan                governing crew rest and training, and ensuring
flight 3407, which resulted in 50 fatalities, raised      air carriers’ Call to Action commitments effec-
concerns regarding regional air carriers’ opera-          tively meet planned safety goals. Other critical
tions. Subsequent investigations and hearings             issues that emerged after the Colgan accident,
into the accident highlighted differences between         such as potential correlations between aviation
mainline and regional air carriers’ operations, and       accidents and pilot experience and compensa-
prompted FAA to take swift action by creating a           tion, also remain unaddressed.
Call to Action plan. The plan focuses on reduc-
ing risks at air carriers; promoting best practices       Regional carrier pilots typically perform short
from mainline to regional carriers; and seeking           and medium hauls to hub airports, which could
industry compliance with safety initiatives involv-       result in many short flights in 1 day. While mul-
ing pilot training, fatigue management, and pilot
professionalism.                                          1
                                                              “Progress and Challenges with FAA’s Call to Action for Airline
                                                               Safety,” cc-2010-028, issued February 4, 2010.




                                     Semiannual Report to Congress          15
tiple studies have concluded that these types of         Action Program (ASAP).2 However, implementing
operations can contribute to pilot fatigue, FAA has      such programs can be extremely challenging for
yet to revise its rules governing crew rest require-     regional carriers due to obstacles such as cost,
ments. The regulations, originally written in 1937,      equipment availability, and fleet size. In FAA’s
were last modified in 1985. According to numer-          recent survey of all Part 121 carriers, 12 carriers
ous industry groups, they are outdated, difficult        either said they did not have the money to imple-
to understand, and not scientifically based. FAA         ment FOQA programs or they were too small for
planned to issue a Notice of Proposed Rulemak-           such an endeavor. While FAA has committed to
ing (NPRM) by December 2009 but failed to meet           expanding smaller or regional carrier participation
that milestone. FAA now intends to issue the             in these types of safety programs, it has not pre-
NPRM later this spring. However, there will be an        sented any plans to encourage smaller carriers to
extensive comment period after issuance, and in          establish these important safety programs.
the past, these comments have led to significant
debate among air carriers. In 1995, FAA made a           The potential link between pilot experience and
similar attempt to change rest requirements but          aviation accidents has been a long-standing
had to withdraw the NPRM due to overwhelming             concern among many Members of Congress
industry opposition. While maintaining momen-            and aviation industry officials. Mainline carriers
tum on this initiative is critical, FAA must ensure      typically hire pilots with military experience, while
the new rule is comprehensive enough to address          regional airlines usually hire pilots directly from
the unique operational environment of regional air       flight training schools or smaller or corporate
carriers.                                                business operators. In addition, many mainline
                                                         carriers hire only pilots with an airline transport
FAA regulations also give air carriers significant       pilot’s license, which requires a minimum of 1,500
latitude in formulating pilot training programs.         flight hours compared to 250 hours required for a
Many mainline carriers use data-driven quality           commercial pilot’s license. NTSB’s investigation
control processes to develop advanced training           into the Colgan accident questioned whether the
based on identified needs. In contrast, most re-         pilots’ experience was sufficient to know how to
gional carriers have developed training programs         respond to a crisis.
based on pilots receiving a minimum number of
hours, which does not require the same amount            Our work in these critical safety matters is ongoing
of data collection and analysis.                         and we expect to issue final reports with recom-
                                                         mendations to FAA later this year.
Mainline carriers’ voluntary safety programs also
tend to be more rigorous. To improve the safety of
their operations, most mainline carriers have pro-       2
                                                             FOQA is a program for the routine collection and analysis of digital
                                                             flight data generated during aircraft operations. The intent of FOQA is
grams such as the Flight Operational Quality As-             to provide greater insight into the flight operations environment. ASAP
surance (FOQA) program and the Aviation Safety               is a joint FAA and industry program intended to generate safety infor-
                                                             mation through voluntary disclosure that may not be otherwise obtain-
                                                             able to identify precursors to accidents.



                                  In Focus: Regional Air Carrier Safety       16
                                               Highway and Transit Programs

Audits                                                 reports. If revenue reached a certain threshold,
                                                       proceeds would be shared with the public part-
December 8, 2009                                       ner. The public partner would also have access to
                                                       the data to locate and respond to traffic incidents,
Transportation Technology Innovation                   support plans for traffic infrastructure projects,
and Demonstration Program                              and for other traffic management purposes.
Request from Senator Orrin Hatch and Represen-
tative Anthony Weiner                                  In response to Sen. Hatch and Rep. Weiner’s
                                                       request to review FHWA’s management and
                                                       oversight of the $54 million awarded under the
Roadway congestion costs Americans $78 billion
                                                       TTID, we assessed whether FHWA (1) achieved
annually, including 4.2 billion hours of excess
                                                       statutory goals and optimized TTID benefits for the
travel time and 2.9 billion gallons of extra fuel.
                                                       public partners and (2) complied with 2005 statu-
The Transportation Technology Innovation Dem-
                                                       tory provisions for a competitive private partner
onstration Program (TTID) was conceived as a
                                                       selection process. We reported that while TTID
public-private partnership in which the private
                                                       addressed statutory goals to deploy traffic data
partner would install and operate technology that
                                                       collection systems and share revenues, FHWA
collected traffic data from public roadways in ex-
                                                       did not optimize the program’s benefits for public
change for the exclusive right to generate revenue
                                                       partners. Specifically, because FHWA allowed
from the data, such as by marketing on-air traffic


                                   Semiannual Report to Congress      17
public partners to control significant aspects of        to replace and rehabilitate the Nation’s bridges
the program, public partners received a lower            based on need, which is largely determined
share of TTID revenue and were restricted from           through inspection criteria in FHWA’s National
freely communicating certain traffic data to the         Bridge Inspection Program (NBIP).
public.
                                                         We assessed FHWA’s oversight of HBP funds
We recommended that FHWA (1) define and                  provided to states, and its enforcement of NBIP
document a more optimal methodology for rev-             bridge inspection standards. We found that
enue sharing between the service provider and            FHWA lacks sufficient data to evaluate states’
the metropolitan areas, considering any exclu-           use of HBP funds because the agency is unable
sions or deductions from the service provider’s          to link expenditures of HBP funds to improve-
gross revenues; (2) test the service provider’s          ments made to deficient bridges. In addition, the
revenue sharing for accuracy according to the            agency lacks the criteria and guidance necessary
documented methodology; (3) develop and                  to determine whether states demonstrate overall
implement options to increase integration of traf-       compliance with bridge inspection standards
fic information and posting on highway message           under NBIP.
signs; and (4) develop and implement a data
service plan that requires timely communication          We made several recommendations aimed at
of test results and prompts remediation of any           better ensuring states are using HBP funds ap-
results below the minimum performance level.             propriately and effectively and that the bridges
FHWA concurred with recommendations 2, 3                 most in need of repair receive funding. FHWA
and 4, and concurred in part with recommenda-            concurred with our recommendations and plans
tion 1.                                                  to evaluate the integration of current standalone
                                                         systems to improve bridge project information,
January 14, 2010                                         as well as establish clear, comprehensive, risk-
FHWA Oversight of the Highway                            based guidance for enforcing compliance with
                                                         NBIP inspection standards.
Bridge Program and National Bridge
Inspection Program
FY 2010 Consolidated Appropriations Act

FHWA estimates that about one in four of the
more than 600,000 bridges nationwide are defi-
cient and that as much as $65 billion would be
needed to address current bridge deficiencies
and other needed improvements. The Highway
Bridge Program (HBP) apportions Federal funds



                                    Highway and Transit Programs      18
Investigations                                             Federal regulations prescribe that the maximum
                                                           a carrier can demand at time of delivery is no
October 9, 2009                                            more than 10 percent over the non–binding esti-
                                                           mate amount.
Former Supervisor Pleads Guilty to
                                                           October 15, 2009
Household Goods Moving Scheme
                                                           North Carolina Motor Carrier Pleads
Pablo Morales, previously a foreman with Adam
Moving and Storage (AMS), a household goods                Guilty To Falsifying Drivers’ Duty Logs
(HHG) moving company, pled guilty on October
                                                           Charles D. Goodwin, Inc. (CDGI), doing business
9, in U.S. District Court, New York, New York, to
                                                           as Goodwin’s Trucking Company pled guilty on
an embezzlement charges as part of a scheme
                                                           October 15, in U.S. District Court, Winston Sa-
of fraudulently inflating the cost of moving cus-
                                                           lem, North Carolina, to charges associated with
tomers’ HHG.
                                                           the falsification of drivers’ hours of service logs,
                                                           which are regulated by FMCSA.
Mr. Morales participated in a scheme to provide
AMS customers with low–ball estimates, only to
                                                           The investigation was initiated as a result of an
have the cost of the move increased, in some
                                                           FMCSA compliance review of CDGI following a
cases doubled or tripled, after the customers’
                                                           fatal accident involving one of its drivers. The
HHG were loaded on the moving truck. AMS
                                                           review revealed that the driver violated FMCSA
would not release the customers’ HHG until they
                                                           hours of service regulations but was not at fault
agreed to pay the artificially inflated rate. As part
                                                           for the accident.       Subsequent investigation
of his plea, Mr. Morales admitted to conducting
                                                           determined that between June 2007 and May
this scheme on a move that was paid for by the
                                                           2008 CDGI drivers made numerous false entries
Department of Defense.
                                                           in their drivers’ hours of service logs. As part of
                                                           the plea agreement, CDGI management admit-
This Investigation was initiated based on infor-           ted responsibility for the falsifications of the driv-
mation received from the Federal Motor Carrier             ers’ hours of service logs. Additionally, the plea
Safety Administration (FMCSA) alleging that AMS            agreement requires CDGI to install an FMCSA
violated FMCSA regulations for failing or refusing         approved computerized monitoring device on all
to furnish an estimate in writing. FMCSA has re-           CDGI trucks.
ceived approximately 75 complaints alleging that
AMS had been holding customers’ HHG hostage
                                                           The investigation was conducted with significant
until the customer paid an artificially inflated
                                                           assistance from FMCSA.
amount. During a compliance review, FMCSA
found that AMS had an established pattern of
providing binding estimates to its customers
that would be fraudulently inflated upon delivery.


                                      Semiannual Report to Congress    19
December 15, 2009                                           hicle displayed a valid inspection sticker despite
                                                            the condition of the brakes. These stickers were
Pennsylvania Truck Owner, Driver and
                                                            allegedly provided by Mr. Jadczak. Mr. Jadczak
Inspection Sticker Supplier Plead Guilty                    allegedly never inspected the truck and permit-
Following Deadly Crash                                      ted Mr. Kalinitchii to operate the vehicle with the
                                                            dangerous brake condition. Additionally, an Of-
Victor M. Kalinitchii pled guilty on December 15, to        fice of Inspector General analysis of Mr. Belovs’
various state charges in the Montgomery County              regulated hours of service logbooks revealed that
Court of Common Pleas, Norristown, Pennsyl-                 he was driving in excess of FMCSA’s maximum
vania, including one felony count of homicide               hours of operating a commercial vehicle at the
by vehicle. The plea is related to a January 23,            time of the accident. All three defendants were
2009, accident on U.S. 76 in Philadelphia, Penn-            scheduled to be sentenced in April 2010. The in-
sylvania, in which one person died and five others          vestigation is ongoing and is being worked jointly
were seriously injured when a truck, operated by            with the Montgomery County District Attorney’s
Valerjis Belovs, plowed into stopped traffic. Mr.           Office and the Pennsylvania State Police with
Kalinitchii owned the commercial vehicle oper-              assistance from FMCSA.
ated by Mr. Belovs. Mr. Kalinitchii admitted that
he solicited, received, and affixed illicit inspection      February 1, 2010
stickers on commercial trucks he owned.
                                                            Trucking Company President and
Mr. Belovs previously pled guilty to various state          Trucking Company Sentenced for
charges including one felony count of homicide              PHMSA Related Scheme
by vehicle. Likewise, Joseph Jadczak, the owner
and operator of Pratt Auto, the supplier of the             JNE Trucking Company, Inc., and Jamie Meras,
illicit inspection stickers, also pled guilty. Mr.          President of JNE Trucking, were sentenced on
Jadczak admitted that he provided fraudulent                February 1, in U.S. District Court for the Central
commercial vehicle stickers without actually                District of California for making false state-
performing any vehicle inspections.                         ments and fraudulent reproduction of motor
                                                            carrier records. JNE Trucking was sentenced to
The investigation determined that the crash was             a $100,400 criminal fine and assessments and
a result of the fact that the tractor–trailer’s brakes      5 years probation. Meras was sentenced to a
were extremely dangerous. Both the driver of                $20,000 fine and 5 years probation.
the tractor trailer, Mr. Belovs, and its owner, Mr.
Kalinitchii, were allegedly aware of the danger-            In May 2007, PHMSA conducted a regulatory
ous brake condition and took no steps to fix the            inspection and found that JNE Trucking did not
problem. Rather, Mr. Belovs continued to drive              have the required shipping papers for a shipment
the truck at Mr. Kalinitchii’s direction. The inves-        of a 70 percent solution of glycolic acid (a cor-
tigation further revealed that the commercial ve-           rosive liquid). The employees of JNE Trucking



                                       Highway and Transit Programs    20
falsely represented to the PHMSA investigator           (MRO) reports. These reports claimed that a
that their driver had a copy of shipping papers         MRO had verified the lab test results and that the
in his possession during the shipment of hazard-        report was in compliance with DOT regulations
ous materials, when in fact he did not. It was          of transportation workplace drug and alcohol
determined that JNE had contacted the recipient         testing programs.
company of the hazardous materials and, days
earlier, asked for a sample shipping paper for          This investigation was conducted with signifi-
the glycolic acid. The sample shipping paper            cant investigative assistance from FAA, FMCSA,
was then altered. In assisting with this cover up,      and DOT Office of Drug and Alcohol Policy and
Meras emailed a fraudulent bill of lading to the        Compliance.
PHMSA investigator fraudulently indicating that
the JNE Trucking driver had it in his possession        February 23, 2010
at the time of shipment.
                                                        Louisiana Third Party Commercial
This investigation was conducted with assistance        Drivers’ License Examiner Pleads
from PHMSA.                                             Guilty
February 18, 2010                                       Harold G. Stewart pled guilty on February 23, in
                                                        U.S. District Court, Baton Rouge, Louisiana, to
Drug Testing Company and its Owner                      one count of making a false statement in con-
Plead Guilty to Wire Fraud Charges                      nection with his role in the falsification of 250 out
                                                        of 320 commercial drivers’ license (CDL) skills
On February 18, Michael R. Bennett and his com-         tests he conducted.
pany, Workplace Compliance, Inc. (WCI), both
pled guilty in U.S. District Court, Winston-Salem,
                                                        Mr. Stewart was a third party examiner for Stewart
North Carolina, to three counts of wire fraud. Mr.
                                                        Auto Sales & Salvage, a business authorized by
Bennett also pled guilty to one additional count
                                                        the Louisiana Department of Public Safety, Office
of making false statements.
                                                        Motor Vehicles (LADPS, OMV) to perform CDL
                                                        skills testing of CDL driver candidates. A state
The charges stem from Mr. Bennett using his             compliance review conducted by LADPS, OMV
company, WCI, a drug and alcohol testing con-           revealed that Mr. Stewart had tested an inordi-
sortium, to fraudulently perform final reviews on       nate amount of CDL candidates with no failure
numerous drug test results from laboratories            ratings. During our interview of Mr. Stewart, he
utilized by motor carriers and air carriers when        admitted to falsifying the skills test for 250 CDL
neither Mr. Bennett nor his company were autho-         candidates for which he was paid approximately
rized to do so. The investigation revealed that         $200 per test. The LADPS, OMV recalled and
between 2005 and 2009 Mr. Bennett obtained              retested all 320 CDL drivers.
lab test results and used computer software
to generate fraudulent Medical Review Officer


                                   Semiannual Report to Congress    21
This investigation was conducted with signifi-         The investigation revealed that the Grundens,
cant assistance from FMCSA Southern Service            doing business as Colorado Choice One entered
Center, FMCSA Louisiana Divisional Office and          into contracts with the U.S. Postal Service valued
LADPS, OMV.                                            at more than $ 1 million to transport mail within the
                                                       State of Colorado. The companies receiving the
March 26, 2010                                         contracts are required to certify compliance with
Colorado Delivery Service Owners                       all relevant contract regulations. The indictment
                                                       alleges that Colorado Choice One failed to pay
Indicted for Falsifying Driver Logs and                its drivers prevailing wages, ordered falsification
Major Fraud Against the United States                  of DOT regulated hours of service logs, falsified
                                                       contract documents, and lied to Federal auditors
George Grunden, Sr. and Renza Grunden, own-            and investigators during a compliance review.
ers of Colorado Choice One Delivery Services
LLC (Colorado Choice One), were indicted in            This investigation was conducted jointly with the
on March 26, in U.S. District Court in Denver,         U.S. Postal Service, Office of Inspector General
Colorado, on charges of major fraud against the        and the Department of Labor, Office of Inspector
United States, making false statements, mail and       General.
wire fraud, and obstruction of a federal audit.




                                  Highway and Transit Programs    22
                                            In Focus: Ensuring Safety on the
                                             Dulles Corridor Metrorail Project


T   he Metropolitan Washington Airports Author-
    ity (MWAA) is constructing a 23-mile exten-
sion of the Metrorail system to serve Virginia’s Ty-
                                                          ment. Environmental impact, costs, and funding
                                                          sources have also influenced project decisions.
                                                          We have closely followed this ambitious under-
sons Corner and Reston-Herndon areas. Tysons
                                                          taking since 2006, around the time the project
Corner is the state’s largest employment center,
                                                          control was transferred from the Virginia Depart-
and Reston-Herndon has the second largest
                                                          ment of Rail and Public Transportation to MWAA,
employment concentration. The extension will
include 11 new stations and will run from East            and the project was under consideration for a
Falls Church, to Washington Dulles International          $900 million FTA grant. In 2007, we reported
Airport, and west to Ashburn. Construction of             significant risk indicators and stressed the need
the first phase of the two-phase project–the line         for vigilant FTA oversight. Key concerns were
from Tysons Corner to Reston–began in March               WMAA’s lack of experience in transit construc-
2009 and is planned to be completed in January            tion and the need for more coordination between
2014. Phase II is still in the planning stages.           MWAA and the Washington Metropolitan Area
                                                          Transit Authority (WMATA), the eventual owner-
From the start, the complex project has been
                                                          operator of the Dulles transit expansion.
controversial. Key issues have concerned the
method of transportation that would be used               Most recently, we have worked with FTA to ad-
(heavy rail, light rail, or Bus Rapid Transit), the       dress a critical safety issue involving the planned
construction of a tunnel through the entire Tysons        use of 30-year-old structures in the project’s
Corner area, and the use of a design-build con-           construction, which was brought to our attention
tractor in a public-private partnership arrange-          in September 2008 by a former engineer on the


                                     Semiannual Report to Congress    23
project. After deeming the complaint credible,                       FTA Administrator calling for several actions to
we requested that FTA answer key questions,                          ensure adequate project oversight and sufficient
including whether FTA agreed with the project                        testing of the older structures. In January 2010,
sponsor’s plan to use the 30-year-old structures,                    the FTA Administrator informed us of its efforts
whether FTA and its oversight consultants had                        to address our concerns.
ensured that sufficient testing had occurred, and                    We are evaluating these efforts as part of our
whether WMATA had approved of the decision to                        current audit of the Dulles project, initiated in
use the structures.                                                  November 2009, and will continue to communi-
Seven months later, in June 2009, FTA respond-                       cate to the Secretary, Congress, and the public
ed to our request, but OIG engineers determined                      key concerns surrounding the project and FTA’s
that it was incomplete. In addition, information                     efforts to ensure safety.
FTA subsequently provided was inconsistent
with its June response. In October 2009—more
than a year after the safety concern was identi-
fied—we issued a management advisory to the




          Source: Dulles Corridor Metrorail Project.




                            In Focus: Ensuring Safety on the Dulles Corridor Metrorail Project      24
                                                Rail & Maritime Programs and
                                                           Economic Analysis

Audits                                                   We also reviewed Amtrak’s FY 2010–2014 Five–
                                                         Year Financial Plan and FY 2010 annual budget,
November 19, 2009                                        as required by the Passenger Rail Investment
                                                         and Improvement Act of 2008 (PRIIA). Amtrak’s
Fourth Quarter Report on Amtrak’s                        5–year financial plan complied with most PRIIA
Fiscal Year 2009 Operational Reforms                     requirements. However, improvement to Amtrak’s
                                                         reporting systems, such as the capacity to re-
Savings and Financial Performance                        port information on key cost drivers for various
and Five–Year Financial Plan Review                      expenses, will provide more detailed financial
Mandated under the Fiscal Year 2009 House and            data that will bring the plan into full compliance
Senate Appropriations Committees’ Consoli-               with PRIIA requirements in future years. Finally,
dated Appropriations Act                                 as outlined in its recently issued strategic guid-
                                                         ance, Amtrak’s approach regarding tracking and
Amtrak’s operating loss for fiscal year 2009 de-         measuring its savings from various operating
creased relative to the budgeted loss. Amtrak’s          reform initiatives has evolved to one focused on
FY 2009 operating loss of $468.2 million was             measuring its overall performance, as opposed
$6.8 million, or 1.4 percent less than budget. This      to tracking the impact of specific reform initia-
is a $22.9 million improvement to the forecasted         tives on its operations. Amtrak’s new approach
loss we reported the previous quarter.                   appears reasonable. However, as we continue
                                                         to review Amtrak’s quarterly performance we will
                                                         evaluate the effectiveness of this approach.

                                    Semiannual Report to Congress      25
Investigations                                             M270 Grade 50 steel. Mr. Appleby purchased
                                                           steel plates from Oregon Steel Mills, Inc. to
February 19, 2010                                          fabricate into the casings. After the first batch of
                                                           steel plates were ordered, Mr. Appleby became
Washington Man Sentenced for                               aware that the steel did not meet the contract
Providing False Documents on Seattle’s                     specifications. Mr. Appleby continued to pur-
                                                           chase and use Grade 36 steel, from Oregon Steel
Light Rail Project                                         Mills and he provided falsified reports to Sound
David Appleby, president of Appleby NW, a steel            Transit to make it appear that Appleby NW, Inc.
fabrication company in Granite Falls, Wash-                had fabricated the casings out of Grade 50 steel.
ington, was sentenced on February 19, in U.S.              Between May 2005 and November 2006, Mr.
District Court to one year probation, a $20,000            Appleby falsified 36 reports and provided them
fine and $30,523 in restitution for making and             to Sound Transit, which in turn provided them to
using false documents in relation to his work on           FTA. Appleby NW, Inc. supplied more than 150
the $2.4 billion Sound Transit Light Rail.                 casings to the light rail project, the majority of
                                                           which did not meet the contract standards. Both
                                                           Sound Transit and FTA asked experts to evaluate
Mr. Appleby successfully bid to fabricate steel
                                                           the use of the lesser grade steel. The studies
casings for the footings for the four mile elevated
                                                           concluded there is no safety issue.
portion of the Tukwila, Washington, Light Rail-
Line Project (Sound Transit). The casings are
large metal tubes, 10 or 12 feet in diameter that          This investigation was conducted jointly with the
encase the concrete pilings just below the sur-            FBI and with assistance provided by FTA.
face and are supposed to be manufactured from




                             Rail & Maritime Programs and Economic Analysis      26
                               Financial and Information Technology

Audits                                                 concluded that management’s description of
                                                       controls presents fairly, in all material respects,
October 1, 2009                                        the controls that have been placed in operation
                                                       and controls are suitably designed. In addition,
Quality Control Review of Controls                     controls were operating effectively except in the
over the Enterprise Services Center                    areas of logical access and segregation of duties
                                                       concerning CASTLE system operations.
OMB Requirement
                                                       November 5, 2009
A CPA firm under contract to OIG reviewed the
general, application, and operational controls         Quality Control Review over the Saint
over the DOT Enterprise Services Center in             Lawrence Seaway Development
accordance with the Statement of Auditing
Standard No. 70. OMB requires agencies that
                                                       Corporation Financial Statements
provide cross–agency services to conduct such          Chiampou Travis Besaw & Kershner LLP, under
a review. The audit covered the Delphi Financial       contract to the Seaway, issued a clean (unquali-
Management System, which is used by multiple           fied) audit opinion of the Saint Lawrence Seaway
Federal agencies, and the Consolidated Automa-         Development Corporation’s financial statements
tion System for Time and Labor Entry (CASTLE),         for fiscal years 2009 and 2008 and reported no
used to support DOT operations only. The audit         internal control deficiencies.



                                  Semiannual Report to Congress      27
November 10, 2009                                            November 16, 2009
Quality Control Review of NTSB’s                             Quality Control Review of Audited
Fiscal Years 2009 and 2008                                   Consolidated DOT Financial
Financial Statements                                         Statements for Fiscal Years 2009 and
Accountability of Tax Dollars Act                            2008
                                                             Certified Financial Officers Act
Leon Snead & Company, P.C., under OIG contract
and supervision, issued a clean (unqualified) audit          Clifton Gunderson LLP, under OIG contract and
opinion of the NTSB’s fiscal years 2009 and 2008             supervision, issued a clean (unqualified) audit
financial statements but reported one significant            opinion of DOT’s fiscal years 2009 and 2008
deficiency due to the lack of a managerial cost              consolidated financial statements. However,
accounting system.                                           Clifton Gunderson indentified five internal con-
                                                             trol significant deficiencies and one instance of
November 13, 2009
                                                             noncompliance with laws and regulations.
Quality Control Review of Audited
                                                             November 18, 2009
Financial Statements for Fiscal Years
2009 and 2008, FAA                                           DOT’s Information Security Program
OMB Bulletin 07-04                                           Mandate under the Federal Information Security
                                                             Management Act of 2002 (FISMA)
Clifton Gunderson LLP, under OIG contract and
supervision, issued a clean (unqualified) audit              During fiscal year 2009, the Department made
opinion of FAA’s fiscal years 2008 and 2009 fi-              notable improvements in two key information
nancial statements. However, Clifton Gunderson               security areas: it issued information about De-
indentified one significant deficiency, related to           partment-wide security policy and improved the
Property, Plant, and Equipment Accounting and                Common Operating Environment’s compliance
Reporting.                                                   with the Federal Desktop Core Configuration.
                                                             However, our annual audit of DOT’s information
                                                             security program and practices determined that
                                                             the Department still has weakness in five critical
                                                             areas: information security policy, enterprise–
                                                             level controls, management of information
                                                             security weaknesses, system–level controls, and
                                                             protection of privacy related information. As a
                                                             result of these weaknesses, the Department’s
                                                             information security program was not compliant
                                                             with all key FISMA and OMB requirements.


                                    Financial and Information Technology      28
We made 27 recommendations to address urgent
vulnerabilities in these areas. The DOT Chief
Information Officer generally concurred with our
findings and recommendations, and planned to
provide a description of specific actions to be
taken to implement these recommendations,
along with milestone dates.

February 1, 2010
Inspector General Review of Fiscal
Year 2009 Drug Control Funds and
Performance Summary Reporting
Office of National Drug Control Policy Circular:
Drug Control Accounting

Our review of the National Highway Traffic Safety
Administration’s (NHTSA) FY 2009 Drug Control
Obligation Summary and Performance Sum-
mary reports did not reveal any information that
would reverse management’s assertions that
the reports presented complied with the Office
of National Drug Control Policy Circular, Drug
Control Accounting, requirements, in all material
respects.




                                   Semiannual Report to Congress      29
Financial and Information Technology      30
                                                    In Focus: Challenges in Securing
                                                                Information Systems


D    OT is responsible for securing more than
     400 information systems used to support its
mission and disburse over $50 billion in Federal
                                                                 key to battling increased cyber security threats.
                                                                 However, DOT has been challenged to establish
                                                                 such a program–one that protects our nation’s
funds each year. More than 100 of these sys-                     air traffic control systems and privacy informa-
tems contain personally identifiable information                 tion.
on millions of citizens. FAA manages nearly two-                 During fiscal year 2009, DOT took important
thirds of DOT’s information systems–including                    steps toward developing a program that would
real-time air traffic control systems, which have                comply with federal information security require-
been designated as part of the Nation’s critical                 ments established in 2002,2 including issuing its
infrastructure.                                                  long-awaited information security policy. How-
With rapid technology changes, information sys-                  ever, the Department has yet to make progress
tems have become increasingly vulnerable to                      in other critical areas, including
cyber attacks. In May 2009, the White House re-                  •     ensuring employees and contractors receive
ported on the urgent need to secure the Nation’s                       proper security training,
digital infrastructure from hackers, who “pose
some of the most serious economic and national                   •     ensuring major security incidents reported to
security challenges of the 21st Century.”1 Estab-                      the Department of Homeland Security (DHS)
lishing a robust information security program is                       have been received,
                                                                 •     correcting identified security weaknesses,
1
 Cyberspace Policy Review Report, “Assuring a Trusted and
Resilient Information and Communication Infrastructure”, May
2009.                                                            2
                                                                     Federal Information Security Management Act of 2002.



                                            Semiannual Report to Congress        31
•   configuring software securely throughout                  At the same time, FAA faces the daunting task
    OA’s systems,                                             of designing and implementing proper security
•   identifying and securing system interfaces,               protection in the Next Generation (NextGen) Air
    and                                                       Traffic Systems currently under development. It
                                                              will take multiple years to complete the transition
•   testing contingency plans for system recov-               from existing air traffic control systems to Next-
    ery.                                                      Gen—a multibillion dollar system that will adopt
A key concern is the need to protect air traffic              IP-based commercial software and Web-enabled
control systems from cyber attacks, especially                design technologies to collect, exchange, and
given FAA’s increased reliance on Internet Proto-             disseminate air traffic information among control-
col (IP)-based commercial software. While this                lers, pilots, support staff, and industry partners.
approach has allowed FAA to efficiently collect               While NextGen has great potential to improve
and disseminate information to facilitate air traf-           air travel, using commercial IP products poses
fic control services, it also poses a higher se-              a higher security risk. The planned outsourcing
curity risk due to the vulnerabilities inherent in            of a portion of the NextGen infrastructure also
using commercial IP products. Adequate secu-                  requires FAA to increase its oversight capabili-
rity certification and accreditation reviews could            ties. The need for a robust cyber security strat-
help minimize this risk. However, past security               egy and design to help manage security risks of
reviews conducted at operational sites were in-               the transition to NextGen is also highlighted in
complete and lacked adequate examination and                  the May 2009 White House Cyberspace Policy
testing. Moreover, FAA lacks an effective means               Review report.
to target its reviews to high-risk systems–those              Finally, DOT is challenged to secure data in its
having unauthorized system configurations. In                 information systems and ensure only authorized
recent years, configuration variances have re-                personnel have access to this information. In
sulted in disrupted air traffic control services.             fiscal year 2009, the Department made progress
Until these deficiencies are corrected, FAA can-              in addressing its statutory responsibility to pro-
not rely on its security reviews to protect air traf-         tect personally identifiable information by com-
fic control systems.                                          pleting a Breach Notification Policy and holding
FAA has taken action to ensure the timely recov-              advanced training sessions for modal privacy
ery of air traffic control facilities, systems, and           personnel. Despite these actions, personally
operations in the event of disruption. FAA de-                identifiable information remains unsecure—in
veloped a business continuity plan and desig-                 part because the Department has been unable
nated the William J. Hughes Technical Center in               to get an accurate count of the systems that
Atlantic City as the recovery site to ensure con-             contain this information. Promptly securing per-
tinued en route (high altitude) air traffic services.         sonally identifiable information is critical given
While FAA has made good progress preparing                    DOT’s information systems continue to include
the Technical Center for recovery operations, ad-             social security numbers. OMB set a target date
ditional efforts are needed to resolve technical              of November 2009 for Federal agencies to re-
challenges in routing radar and communication                 move social security numbers from their infor-
signals to the recovery site, staffing issues, and            mation systems, but DOT does not plan to elimi-
funding requirements to avoid delays of the re-               nate them until 2015. DOT also missed OMB’s
covery site’s readiness.                                      October 2008 deadline for issuing Personal


                             In Focus: Challeges in Securing Information Systems      32
Identity Verification (PIV) cards to employees
and contractors—a key governmentwide initia-
tive to authenticate authorized users of Federal
resources–building, information, and informa-
tion systems. As of September 2009, only 31
percent of DOT employees and contractors
had a PIV card. In March 2010, DOT initiated an
aggressive plan to complete issuance of PIV
cards to its remaining employees and con-
tractors as quickly as possible. In response to
our audits, the Department has committed to
developing an enhanced strategy to advance
its information security and privacy program in
fiscal year 2010. For example, the Department
reported that it is taking aggressive action to
secure budgetary resources for an enhanced
information security program, raise senior
management’s awareness of cybersecurity
threats, and improve employee security training.
Also, it is engaging the National Security Agency
to help assess security vulnerabilities.
Ensuring security policies are properly imple-
mented throughout the Department will require
strong leadership and oversight by senior man-
agement–especially since most DOT systems
are owned and managed by FAA and the Depart-
ment’s other OAs. We will continue working with
the Department in these key areas to enhance
information security protection.




                                   Semiannual Report to Congress    33
In Focus: Challeges in Securing Information Systems      34
                                                  Acquisition and Procurement


Audits                                                  We found significant delays in DOT’s S&D de-
                                                        cisionmaking process, giving unscrupulous con-
January 7, 2010                                         tractors ample opportunity to bid for and receive
                                                        contracts. On average, it took over 300 days to
DOT’s Suspension and Debarment                          reach a suspension decision and over 400 days
Program Does Not Safeguard Against                      to reach a debarment decision. These delays are
                                                        largely due to lengthy and unnecessary reviews
Awards to Improper Parties                              conducted before deciding cases and a lack of
Self-Initiated                                          priority assigned to DOT’s S&D workload. At the
                                                        same time, DOT’s management controls are not
DOT’s contract and grant obligations aver-              adequate to safeguard the Department’s efforts
aged $56 billion annually over the last 4 years;        to exclude prohibited parties that agencies must
ARRA added $48 billion to DOT’s management              suspend or to propose debarment. A weakness
responsibilities. DOT’s stewardship of taxpayer         surrounding DOT’s main S&D policy is its inability
dollars includes adhering to Federal suspension         to clearly define that DOT needs to suspend—or
and debarment (S&D) regulations and policies,           propose debarment—of parties within a required
which permit the exclusion of parties found to be       45-day limit. DOT’s S&D Program is also limited
unethical, dishonest, or otherwise irresponsible,       by the absence of strong program oversight. The
from receiving contracts and grants involving           cumulative effect of these weaknesses increases
Federal funds.

                                   Semiannual Report to Congress    35
the risk that DOT and other agencies will award         Investigations
contracts and grants to parties that DOT will
ultimately suspend or debar.                            November 5, 2009

We made specific recommendations to DOT’s               The United States and Tutor Perini
Senior Procurement Executive and to FAA to              Corporation Settle Civil Fraud Claims
address these weaknesses. DOT concurred
with all of our recommendations. According to
                                                        for $9.75 Million
DOT, it has adopted a revised Departmental              On November 5, Tutor Perini Corporation, former-
Order (DOT Order 4200.5E, March 16, 2010) on            ly Perini Corporation (Perini), a publicly–traded
case processing that should resolve some of the         construction services corporation, settled claims
problems highlighted in the report. FAA fully con-      that they falsely and fraudulently reported that
curred with all but one recommendation–partially        certain minority and disadvantaged business en-
concurring with our recommendation on issuing           terprises (DBE) were performing subcontracted
S&D notices in 45 days.                                 work on federally funded public works contracts
                                                        with the City and State of New York, when in fact
March 18, 2010                                          non–DBE subcontractors were performing the
Weaknesses in DOT’s Suspension                          work. Pursuant to the settlement, Perini has paid
                                                        the United States $9,750,000. The settlement
and Debarment Program Limit Its                         does not constitute an admission or liability by
Protection of Government Funds                          Perini.
Testimony before the House Committee on Over-
sight and Government Reform                             The settlement is the result of a joint investiga-
                                                        tion conducted by the Federal Construction
The Inspector General’s testimony on DOT’s              Fraud Task Force, which was organized by the
Suspension and Debarment Program was based              United States Attorney’s Office in June 1999 to
on our January 7, 2010, report. The Inspector           investigate fraud and corruption in the construc-
General cited how DOT’s S&D decisions and               tion industry. In addition to the U.S. Attorney’s
reporting have been significantly delayed, which        Office, the members of the Task Force include
increases the risk that DOT and other agencies          the Internal Revenue Service, Criminal Investiga-
will award contracts and grants to parties that         tion Division; the Department of Labor, Office of
DOT will ultimately suspend or debar. In addition,      the Inspector General; the New York City Depart-
the Inspector General noted how weaknesses in           ment of Investigation; the Inspector General for
DOT’s S&D policies, procedures, and internal            the Metropolitan Transportation Authority; and
controls make them inadequate to safeguard              the Inspector General for the Port Authority of
DOT’s efforts to exclude prohibited parties from        New York and New Jersey.
obtaining contracts and grants.



                                    Acquisition and Procurement      36
November 19, 2009                                       ended up with SPI and CDS and in exchange for
                                                        allowing SPI and CDS to use its name, Marikina
Former Owners of Pennsylvania Bridge
                                                        was paid a small fixed–fee. Romeo Cruz, owner
Beam Manufacturer Indicted In                           of Marikina, Dennis Campbell, Vice President for
$136 Million DBE Fraud                                  SPI, and Timothy Hubler, Vice President for CDS
                                                        have all previously pled guilty to the conspiracy.
Joseph W. Nagle and Ernest G. Fink, the former
owners of Schuylkill Products, Inc. (SPI), and CDS      This is the largest reported DBE fraud scheme in
Engineers, a subsidiary of SPI, were charged on         DOT history. This investigation was conducted
November 19, by a Federal Grand Jury with a             jointly by the FBI; the U.S. Department of Labor,
32 count indictment for conspiracy and other            Office of Inspector General; and the Internal Rev-
crimes connected with a “pass–through” scheme           enue Service, Criminal Investigation Division.
to defraud DOT’s DBE program. The scheme is
alleged to have run for over 15 years, and in-          January 5, 2010
volved the improper award of over 300 federally–
funded highway and transit DBE subcontracts in
                                                        New York Construction Company Vice
Pennsylvania valued at over $136 million. SPI           President Sentenced for MBE Fraud
manufactured concrete bridge beams and CDS              Scheme on Numerous Roadway
was the engineering and bridge erection division
of SPI.                                                 Projects
                                                        John Ruggiero, the Vice President of AFC Enter-
More specifically, the indictment alleged that          prises, Inc. (AFC) was sentenced on January 5,
Mr. Nagle, Mr. Fink, and others used a small            in U.S. District Court, Brooklyn, New York, to 3
Connecticut-based highway construction firm,            years probation, fined $50,000, ordered to pay
Marikina Construction Corporation as a front            $70,000 in restitution to the City of New York,
company to obtain lucrative government con-             and forfeit $120,000 to the Federal government
tracts reserved for small and disadvantaged             for his role in an minority business enterprise
businesses. The indictment alleged that between         (MBE) fraud scheme on numerous roadway re-
1993 and 2008, Marikina received over $136 mil-         construction projects awarded by DOT grantees
lion in DOT funded DBE subcontracts for bridge          throughout the New York area.
construction, but SPI and CDS personnel actually
performed the work. The contract money merely
                                                        Mr. Ruggiero previously pled guilty and admitted
passed through Marikina to make it appear that
                                                        that from 1998 to 2002, he and his co-conspira-
a DBE was involved, when in reality, SPI and
                                                        tors at AFC utilized a certified MBE subcontrac-
CDS personnel actually found, negotiated, co-
                                                        tor, VVSS, Co., Inc. (VVSS), as a “front” MBE to
ordinated, performed, managed, and supervised
                                                        fraudulently meet their MBE goals on numerous
all the DBE subcontracts awarded to Marikina.
                                                        public works projects throughout the New York
All the profits from these subcontracts allegedly
                                                        area. VVSS was required to perform the MBE


                                   Semiannual Report to Congress    37
subcontract work; however, AFC provided all of             amount of fraudulent invoices amounted to over
the labor, materials, and equipment while VVSS             $1.6 million. The scheme to defraud involved Mr.
merely acted as a payroll and bill processing              Gupta moving hours among different jobs and
service and did not perform a “commercially                contracts by directing the 30 plus employees of
useful function” as required by regulations. Mr.           KEI to complete time sheets in pencil, which al-
Ruggiero and others submitted fraudulent docu-             lowed the alterations. Fraudulent invoices were
mentation to New York City agencies to deceive             then mailed to IDOT for payment. Mr. Gupta has
the contracting agencies and falsely indicate that         made full restitution to all parties involved. After
AFC was complying with the New York City MBE               indictment, KEI, now defunct, and Mr. Gupta
program.                                                   were suspended by FHWA.

This investigation was conducted jointly with              This investigation was conducted jointly with
members of the Federal Construction Fraud Task             the FBI with substantial assistance from IDOT,
Force, Eastern District of New York, of which the          Division of Audits. Sentencing for Mr. Gupta is
DOT-OIG is a founding member.                              scheduled for May 27, 2010.

March 2, 2010                                              March 16, 2010
Company President Pleads Guilty to                         Pennsylvania County Officials Charged
Mail Fraud Involving FHWA Funded                           in Corruption Probe Involving DOT
Contracts                                                  Contracts
Kamleshwar Gupta, President and CEO of KAM                 A Federal grand jury in Scranton, Pennsylvania,
Engineering, Incorporated (KEI), pled guilty on            returned a 40-count indictment on March 16, that
March 2, in U.S. District Court, Northern District         alleged, in part, that former County Commissioner
of Illinois, to mail fraud related to falsified infor-     Robert C. Cordaro and current County Commis-
mation submitted to the Illinois Department of             sioner Anthony J. Munchak accepted monetary
Transportation (IDOT) and other state entities for         payments in exchange for steering DOT-funded
payment on state transportation contracts.                 contract work at the County of Lackawanna
                                                           Transit System (COLTS) (an FTA grantee) and the
From 1994 to 2003, Mr. Gupta submitted false               Wilkes-Barre/Scranton International Airport (an
invoices and financial information regarding               FAA grantee).
overhead expenses and the number of hours
worked by KEI employees on contracts for IDOT,             Specifically, COLTS received $9.7 million in FTA
Chicago Department of Transportation, Metra,               funds to design and build an Intermodal Trans-
and the Illinois State Tollway Authority, many of          portation Center. The DOT-funded contract was
which were federally-funded by FHWA. The total             initially awarded to L. Robert Kimball. Mr. Cordaro




                                       Acquisition and Procurement      38
and Mr. Munchak allegedly terminated L. Robert
Kimball’s contract and sole-sourced the contract
to an unnamed architectural firm. The indict-
ment alleged that principals of the unnamed firm
provided $90,000 in cash to Mr. Cordaro and Mr.
Munchak for this contract, and anticipated award
of additional contracts with the County. FTA
previously required COLTS to return $907,345
on this contract due to the county’s failure to
comply with a Federal regulation that required
them to seek bid proposals from third-party de-
sign and engineering services contractors rather
than issue sole-source or non-bid contracts. In
addition, Mr. Codaro allegedly accepted cash
from the principal of a contractor who performed
work at the Wilkes-Barre/Scranton International
Airport.

This investigation was conducted jointly with the
FBI and the Internal Revenue Service, Criminal
Investigation Division.




                                   Semiannual Report to Congress    39
Acquisition and Procurement      40
                                                           Department-Wide Issues

November 16, 2009                                      •   Maximizing the Department’s Economic Re-
                                                           covery Investments
DOT’s Fiscal Year 2010 Top
Management Challenges                                  •   Enhancing Surface Safety Programs to Re-
OMB Requirement                                            duce Injuries and Fatalities while Defining a
                                                           New Federal Role in Transit Safety
Longstanding concerns that demand ongoing
attention include relieving highway and air traffic    •   Maximizing Federal Surface Infrastructure In-
congestion, financing the Highway Trust Fund,              vestments by Helping States Better Allocate
and addressing the Nation’s aging surface infra-           Resources and Providing Effective Oversight
structure. At the same time, the Department must
address new OIG concerns, such as starting up          •   Addressing Human Factors and Strengthen-
an intercity high-speed rail system and ensuring           ing the Regulatory and Oversight Framework
that the Department has a sufficient acquisition           for Aviation Safety
workforce with the skills needed to oversee
contracts. For fiscal year 2010, we identified the
                                                       •   Moving Toward the Next Generation Air
following 10 top management challenges facing
                                                           Transportation System and Improving Perfor-
the Department:
                                                           mance of the National Airspace System




                                    Semiannual Report to Congress  41
•   Improving Contract Management and Over-             Several criteria were considered in identifying
    sight                                               these challenges, including their impact on
                                                        safety, documented vulnerabilities, large dollar
•   Enhancing the Ability to Combat Cyber At-           implications, and the ability of the Department
    tacks and Improving the Governance of               to effect change in these areas. We have begun
    Information Technology Resources                    to build a body of work to help the Department
                                                        effectively manage these and other emerging
•   Developing a Funding Framework for the              issues.
    Next Surface Transportation Reauthorization
                                                        This report was included in the Department’s
•   Strengthening the Department’s Acquisition          Performance and Accountability Report, as re-
    Workforce                                           quired by law.


•   Successfully Implementing the Newly Cre-
    ated Multi-Billion Dollar High-Speed Intercity
    Passenger Rail Program




                                      Department-Wide Issues      42
                                                       Other Accomplishments




                                                      Other Accomplishments

This section highlights other accomplishments and contributions by Office of Inspector General staff
that extend beyond the legal reporting requirements of the Inspector General Act. These accom-
plishments are part of our statutory responsibilities to review existing and proposed legislation and
regulations; respond to congressional and departmental requests for information; and review policies
for ways to promote effectiveness and efficiency and detect and prevent fraud, waste, and abuse.


October 22, 2009                                      it to FTA’s attention in a November 2008 Hotline
                                                      complaint. A credible source contacted OIG as-
Management Advisory on Dulles                         serting that the Metropolitan Washington Airports
Corridor Metrorail Project Safety                     Authority, the project sponsor, had not conducted
Concerns                                              sufficient testing on eleven pier foundations and
                                                      their underlying steel piles that were built 30 years
                                                      ago, and will support a portion of the project’s
OIG issued a management advisory to FTA on
                                                      new guiderail. The FTA’s response to our Hotline
a potentially serious safety issue related to the
adequacy of foundations at a segment of the           complaint was incomplete and inconsistent with
Dulles Corridor Metrorail Project. This issue         subsequent engineering information that FTA
remains unresolved a year after we first brought      provided to us.


                                  Semiannual Report to Congress      43
In our management advisory, we prompted FTA •              In January 2010, OIG launched a new public
to conduct a review of project management per-             website to become consistent with govern-
formance to assess whether adequate oversight              ment-wide efforts to improve transparency
is being conducted on the project. In addition, we         and accountability. The revamped website is
urged FTA to develop a plan outlining how it will          designed to be more user-friendly in searching
ensure that sufficient testing of the existing foun-       for OIG work products, explains our mission
dations will take place before additional construc-        and role in greater detail, and provides en-
tion is undertaken at the locations in question.           hanced capacity to receive timely notice of our
Finally, we encouraged FTA to outline additional           activities through a variety of sources.
steps it plans to take to enhance future oversight
of the project.                                      •     On January 28, 2010, a Program Director from
                                                           the Amtrak, High Speed Rail and Economic
Speaking Engagements                                       Analysis office gave a speech on rail station
                                                           funding sources at an Amtrak conference in
In addition to our other accomplishments,                  San Antonio, TX. This conference was attend-
members of the OIG shared their knowledge by               ed by over 60 city mayors, council members,
speaking or participating in panel sessions at             and state DOT officials from Illinois, Kansas,
conferences hosted by DOT, the IG community,               Washington, Louisiana and New Mexico.
and other transportation-related organizations
through the following:                         •           On January 29, 2010, the Assistant Inspector
                                                           General for Legal, Legislative, and External Af-
•   On December 3, 2009 the Assistant Inspector            fairs, as part of a forum hosted by DOT, deliv-
    General for Legal, Legislative, and External Af-       ered a presentation before the Transportation
    fairs participated in a panel discussion hosted        Industry Study seminar of the Industrial College
    by DOT’s Center for Alternative Dispute Reso-          of the Armed Forces on the role, mission, and
    lution entitled “Unlocking Litigation Gridlock:        authority of OIG as well as the top manage-
    Mediation in Employment Cases”. The forum              ment challenges facing the Department.
    focused on case situations where mediation
    could be beneficial, the role of the mediator,
    and party expectations.




                                       Other Accomplishments      44
                                          Work Planned and in Progress


This section describes work projects currently under way or planned by the Office of Inspector General
for the period of April 1 through September 30, 2010. Projects focus on the Department’s Strategic
Plan and its core missions of transportation safety and mobility. We take into account the need to
support DOT’s most critical programs and to ensure that departmental resources are protected from
fraud and waste. In addition, many of our projects arise from requests by Administration officials and
members of Congress.




AVIATION AND SPECIAL PROGRAMS
IN PROGRESS

FAA’s Progress in Developing                           conducting an audit to identify specific challenges
                                                       FAA inspectors face in conducting oversight of
and Implementing NextGen
                                                       on-demand operators.
Transformational Programs
At the request of the Chairmen and Ranking Mem-        FAA Oversight of Use of Airport
bers of the Senate Committee on Commerce, Sci-         Revenue – Denver International Airport
ence, and Transportation and the Subcommittee
on Aviation Operations, Safety, and Security, OIG      OIG is determining whether FAA’s oversight
is reviewing FAA’s progress with five NextGen          ensures that the Denver International Airport is
transformational programs. Specifically, OIG is        using revenues only for airport purposes and is
conducting an audit to (1) review the status of        as self-sustaining as possible. Prior reviews by
the programs’ cost, schedule, and performance          our office and FAA have identified hundreds of
baselines; and (2) determine FAA’s progress in         millions of dollars in diverted airport revenues.
implementing these programs and identify risk to       Those revenues should have been used for the
achieving NextGen goals.                               capital or operating cost of airports but were used
                                                       for non-airport purposes.

Challenges to FAA’s Oversight of On-
                                                       FAA Oversight of Required Navigation
Demand Operators
                                                       Performance (RNP) Third-Party
At the request of the Chairmen of the House            Agreements
Committee on Transportation and Infrastructure
and Subcommittee on Aviation, we are reviewing         At the request of the Chairman of the House
FAA’s oversight of on-demand operators. OIG is         Subcommittee on Aviation, OIG is assessing the


                                   Semiannual Report to Congress      45
extent to which FAA is relying on third-parties for     FAA’s Organization Designation
the development of new RNP procedures and
                                                        Authorization (ODA) and Risk Based
determine whether FAA has established sufficient
mechanisms and has sufficient staffing to provide       Resource Targeting Processes
safety oversight of the third parties.
                                                    At the request of Representative Daniel Lipinski
                                                    of the House Committee on Transportation and
Follow-Up Review of Aviation Transpor- Infrastructure, OIG is determining (1) the role
tation Oversight System (ATOS)                      FAA plays in the selection process for individu-
                                                    als who perform work under the ODA program,
                                                    (2) the adequacy of FAA’s safety oversight of the
OIG is determining whether FAA has (1) com-
                                                    program, and (3) the effectiveness of FAA’s Risk
pleted timely inspections of air carriers’ systems
                                                    Based Resource Targeting assessment process.
for monitoring critical maintenance programs,
                                                    The ODA program consists of companies that
(2) tested and validated that these carrier sys-
                                                    FAA authorizes to perform certain functions on
tems are operating effectively, and (3) effectively
                                                    its behalf, including the issuance of airworthiness
implemented ATOS for the remaining air carriers
                                                    certificates, approval of certain aircraft engineer-
regulated under 14 C.F.R. § 121.
                                                    ing designs and test data, and modifications to
                                                    existing approved designs.
FAA’s System Wide Information
Management Program (SWIM)                               Review of FAA’s Progress with
OIG is examining (1) the strengths and weak-            Transitioning to NextGen
nesses of FAA’s approach for developing and
                                                        At the request of the Chairmen and Ranking Mem-
funding SWIM efforts, and (2) the effectiveness
                                                        bers of the House Committee on Transportation
of FAA’s plan to identify and manage key risks
                                                        and Infrastructure and Subcommittee on Aviation,
that could affect a nationwide deployment or
                                                        OIG is reviewing FAA’s progress in transitioning
limit anticipated benefits. SWIM is an advanced
                                                        to NextGen. Specifically, we are addressing
technology program designed to facilitate greater
                                                        (1) key actions needed to successfully implement
sharing of Air Traffic Management system informa-
                                                        NextGen, (2) FAA and partner agencies’ progress
tion, such as airport operational status, weather
                                                        in leveraging resources and budgets, and (3) FAA’s
information, flight data, status of special use
                                                        efforts to engage the private sector in shaping
airspace, and National Airspace System (NAS)
                                                        NextGen policy issues.
restrictions. SWIM will support current and future
NAS programs by providing a flexible and secure
information management architecture for sharing
NAS information.




                                    Work Planned and in Progress    46
Certification of NextGen Technologies                 tee on Aviation Operations, Safety, and Security;
                                                      the Chairman of the House Transportation and
At the request of the Chairmen of the House Com- Infrastructure’s Subcommittee on Aviation; and
mittee on Transportation and Infrastructure and Representatives Louise Slaughter, Christopher
the Subcommittee on Aviation, OIG is conduct- Lee, and Brian Higgins, OIG is conducting an au-
ing an assessment of FAA’s revised certification dit to (1) identify FAA regulations and airline poli-
procedures, as applied to Automatic Dependent cies regarding crew rest requirements and fatigue
Surveillance Broadcast (ADS-B) to (1) determine issues, including the role of pilots’ domicile and
the impact on FAA’s statutory responsibility to duty locations; (2) determine how FAA and airlines
maintain the safety and integrity of air traffic con- enforce these regulations and policies; and (3) as-
trol systems, and (2) identify the challenges and sess how FAA and airlines update those policies
risks associated with the private sector operating and procedures to ensure they address changing
and maintaining key air traffic control system. conditions within the aviation industry.
ADS-B is a satellite-based surveillance technol-
ogy that combines the use of satellites, aircraft
avionics, and ground-based systems to provide Costs and Controls Associated With
more accurate information about aircraft location the 2009 FAA/National Air Traffic
for pilots and air traffic controllers.               Controllers Association (NATCA)
                                                        Contract
Congressional Inquiry Regarding
Transfer of Boise Terminal Radar                    At the request of Representative John L. Mica,
                                                    Ranking Member of the House Committee on
Approach Control (TRACON) to Salt                   Transportation and Infrastructure, OIG is con-
Lake City                                           ducting an audit of the new collective bargaining
                                                    agreement between FAA and NATCA to (1) evalu-
As agreed with the Idaho Congressional Delega- ate the accuracy and completeness of FAA’s cost
tion, OIG is reviewing FAA’s process for projecting estimate of the new contract, (2) identify contract
costs associated with relocating the Boise TRA- provisions that could escalate costs, and (3) de-
CON to Salt Lake City.                              termine if FAA has sufficient controls in place to
                                                    prevent cost escalations.
FAA Regulations and Airline Policies
Regarding Crew Rest Requirements                        FAA Oversight of Pilot Training and
and Fatigue Issues                                      Regional Airlines
At the request of the Chairmen and Ranking Mem- At the request of the Chairmen and Ranking Mem-
bers of the Senate Committee on Commerce, bers of the Senate Committee on Commerce,
Science, and Transportation and its Subcommit- Science, and Transportation and its Subcommit-



                                    Semiannual Report to Congress      47
tee on Aviation Operations, Safety, and Security;         FAA’s Process for Awarding ARRA
the Chairman of the House Transportation and
                                                          Grants for Airport Projects
Infrastructure’s Subcommittee on Aviation; and
Representatives Louise Slaughter, Christopher             ARRA requires Inspectors General to identify and
Lee, and Brian Higgins, OIG is performing an au-          report potential management risks associated
dit of pilot training and regional airlines. Our audit    with ARRA projects and funds. The objective of
objectives are to assess (1) FAA oversight for air        this audit is to review the effectiveness of FAA’s
carrier pilot training and proficiency programs, and      process for awarding ARRA grants for airport
(2) the process and data FAA and air carriers use         projects.
to evaluate the competence and qualifications of
pilots when they are hired.                               PLANNED

Commercial Aviation Accidents, Pilot                      FAA’s Implementation of RTCA’s
Experience, and Pilot Compensations                       NextGen Task Force Recommendations
At the request of the Chairmen and Ranking Mem-           OIG will review and assess how FAA is (1) re-
bers of the Senate Committee on Commerce, Sci-            sponding to the Task Force’s recommendations
ence, and Transportation and the Subcommittee             and adjusting its NextGen plans and budgets,
on Aviation Operations, Safety, and Security, OIG         (2) engaging industry in planning and executing
is conducting an audit of FAA’s regulations gov-          NextGen, and (3) addressing barriers or chal-
erning pilot training and fatigue and any relation-       lenges that may impact FAA’s ability to implement
ship between commercial aviation accidents, pilot         the Task Force’s recommendations.
experience, and pilot compensation. Specifically,
we will identify and assess trends in commercial
aviation accidents including any correlations be-
                                                          FAA Oversight of Use of Airport
tween pilot experience and compensation.                  Revenue – Venice (FL) Municipal
                                                          Airport
Flight Delays in the New York Region                      OIG will determine if FAA oversight ensures the
and Corresponding Effects Nationwide                      City of Venice is using airport revenues and prop-
                                                          erty only for airport purposes and the airport is as
At the request of the Chairman of the House               self-sustaining as possible.
Subcommittee on Aviation, OIG is conducting a
comprehensive review to (1) determine the princi-
pal causes of flight delays in the New York region,
and (2) identify the corresponding effect of these
delays nationwide.




                                      Work Planned and in Progress      48
FAA’s En Route Automation                              Department of Transportation and FAA
Modernization (ERAM)                                   Oversight of Domestic Code-Share
Implementation                                         Relationships
At the request of the Chairman and Ranking Mem-        At the request of the Chairmen of the House Com-
ber of the House Committee on Appropriations,          mittee on Transportation and Infrastructure and
Subcommittee on Transportation, Housing and            Subcommittee on Aviation, OIG will conduct an
Urban Development, and Related Agencies, OIG           audit of DOT and FAA’s oversight of code-share
plans to begin a review of FAA’s implementation of     agreements between domestic air carrier partners.
the ERAM system. ERAM is a $2.1 billion program        Our audit objectives will be to (1) examine DOT
to replace the existing computer hardware and          and FAA’s legal authority to review agreements
software at FAA’s 20 facilities that manage high-      between mainline air carriers and their regional
altitude traffic. ERAM is a key enabling platform      partners, (2) assess how mainline air carriers
for many of FAA’s envisioned NextGen capabili-         ensure that their regional partners have the same
ties. OIG was asked to assess the progress and         level of safety, and (3) determine whether the fly-
problems with ERAM, trade-offs or changes in           ing public has adequate air carrier information to
requirements that have been made to deploy the         make informed decisions when purchasing airline
system, and the impact delays have had on the          tickets.
program’s projected cost and schedule.




                                   Semiannual Report to Congress    49
HIGHWAY AND TRANSIT PROGRAMS
IN PROGRESS

FTA’s Oversight of Access to the                         including $77.3 million in ARRA funds. Our audit
                                                         objectives are to (1) evaluate the effectiveness of
Region’s Core Project, New York, New
                                                         FTA’s oversight of the Dulles Corridor Metrorail
Jersey Area                                              Project, and (2) assess potential safety concerns.
OIG is assessing the main risks facing a $9 bil-
lion proposed transit project and evaluating FTA’s Oversight Challenges Associated with
oversight efforts to ensure that risk mitigation
                                                   Transit Safety Programs
strategies are implemented, based on concerns
identified in FTA’s 2009 annual report on New OIG is reviewing challenges associated with
Starts Funding requirements.                       enhancing federal oversight authority for transit
                                                   safety programs. Our audit objective is to highlight
FTA’s Oversight of Major Transit                   challenges and risks related to increasing federal
                                                   oversight of transit safety and actions the Depart-
Projects in New York City                          ment can take to enhance its effectiveness.
OIG is conducting a series of audits of the follow-
ing major transit projects in New York City, totaling    NHTSA’s Office of Defects
approximately $7 billion in Federal funding: the
Fulton Street Transit Center, Port Authority Trans-
                                                         Investigation (ODI)
Hudson Terminal, Second Avenue Subway, and          OIG is reviewing actions taken by NHTSA’s ODI
East Side Access projects. OIG is evaluating the    in regard to Toyota recalls as well as the overall
effectiveness of FTA’s oversight of each project    process for identifying and investigating safety
and assessing whether ARRA goals and require-       defects. Our audit objectives are to (1) examine
ments are being met, if applicable.                 NHTSA’s efforts to ensure that ODI has the ap-
                                                    propriate information systems and processes in
FTA’s Oversight of the Dulles Corridor place to promptly identify and take action to ad-
                                                    dress potential safety defects as intended by the
Metrorail Project
                                                    TREAD Act, (2) assess NHTSA’s procedures and
OIG is conducting an audit of FTA’s oversight of processes for ensuring that companies provide
Phase 1 of the Dulles Corridor Metrorail Project in timely notification of potential safety defects, and
the Washington, D.C. metropolitan area. This in- (3) examine the lessons learned from the Toyota
frastructure project involves a Federal investment recalls to identify any improvement needed in cur-
of $900 million through FTA’s New Starts program, rent policies and procedures.


                                     Work Planned and in Progress    50
Effectiveness of FHWA National                           Oversight of the Denali Commission’s
Review Teams                                             Transportation Program
OIG is assessing whether the National Review             At the request of Senator Christopher S. Bond,
Teams have been effective in helping FHWA over-          OIG is assessing the Denali Commission’s use of
see $26 billion in ARRA funding and mitigate the         Federal-aid highway and transit funds and evalu-
key risks posed by the implementation of ARRA.           ating DOT’s oversight of the Commission and
                                                         state transportation agencies.
FHWA Oversight of Local Public
                                                         PLANNED
Agency (LPA) Projects
OIG is assessing FHWA’s oversight of the                 Oversight of ARRA Discretionary
$6 billion to $8 billion provided annually to locali-    Grants
ties along with $8 billion in ARRA funding in the
next 3 years. Our audit will include a comparison        OIG plans to assess whether DOT met ARRA
of the oversight provided to LPA programs ap-            discretionary grant requirements and to evaluate
proved through ARRA with those funded through            the strategy for discretionary grant administration
regular Federal-aid funding.                             and oversight. ARRA created new discretionary
                                                         grant programs, including $1.5 billion for surface
                                                         transportation infrastructure projects to be admin-
Oversight of FHWA High Dollar ARRA                       istered by the Office of the Secretary (OST).
Projects
OIG is conducting an audit to determine if FHWA’s        Review of Charter Rule
oversight of selected higher dollar value ARRA
                                                         In response to a provision in the conference re-
projects has resulted in project compliance with
                                                         port accompanying the FY 2010 Departments of
key Federal-aid highway requirements for cost,
                                                         Transportation, Housing and Urban Development
quality, and construction schedule. ARRA pro-
                                                         and Related Agencies appropriations bill, OIG
vided $27.5 billion to FHWA for ARRA highway
                                                         plans to review the effect of charter tour regula-
infrastructure investments and required FHWA to
                                                         tions on quality and price of transit services.
ensure states receiving ARRA funds adhere to all
Federal-aid highway program requirements.




                                     Semiannual Report to Congress    51
RAIL & MARITIME PROGRAMS AND ECONOMIC ANALYSIS
IN PROGRESS

MARAD’s Title XI Loan Guarantee                        and (2) identify the trends in on-time performance,
                                                       and the factors underlying those trends, between
Program
                                                       FYs 2004 and 2009.
OIG is determining whether MARAD is in compli-
ance with the recommendations contained in our         Review of Amtrak’s Five-Year Capital
2003 and 2004 audit reports on the Title XI Loan
Guarantee Program and the degree to which              Plan
information was readily available to oversee the
                                                       At the request of the House Committee on Ap-
program. This audit was requested by the Senate
                                                       propriations, we are reviewing Amtrak’s capital
Committee on Appropriations, Subcommittee on
                                                       planning process. Specifically, the objectives of
Transportation, Housing and Urban Development,
                                                       this audit are to determine (1) Amtrak’s five-year
and Related Agencies.
                                                       capital requirements and how these align with
                                                       its business and strategic goals, (2) how Amtrak
Amtrak Semiannual Reports on                           prioritizes its capital projects among competing
                                                       needs, (3) Amtrak’s ability to implement its in-
Operational Savings
                                                       creased capital budget provided by ARRA, and (4)
OIG is issuing semiannual reports to the House         how Amtrak evaluates the performance of capital
and Senate Committees on Appropriations on             projects.
our estimates of the savings accrued as a result
of operational reforms instituted by Amtrak, as        Causes of Amtrak Delays / Intercity
mandated by Congress.
                                                       Passenger Rail Service Bottlenecks
Causes of Delays on the Amtrak                    OIG is identifying the locations of “bottlenecks”
                                                  along Amtrak routes and determining the causes
Cascades and Coast Starlight Routes
                                                  using an econometric model. In particular, we will
In accordance with Section 225 of the Passenger seek to identify which of these bottlenecks are
Rail Investment and Improvement Act of 2008, due to congestion, or relative lack of capacity. In
OIG is reviewing the causes of Amtrak delays and doing so, we will help to identify the locations that
service interruptions on the Amtrak Coast Star- warrant further, more in-depth examination, as
light and Cascades routes. The objectives of our candidates for rail infrastructure investments.
review are to (1) determine the causes of delays,




                                   Work Planned and in Progress      52
Utilization of Amtrak’s                                 Financial Analysis of Transportation
Maintenance Facilities                                  Related Public-Private Partnerships
In accordance with Section 227 of the Passenger
                                                        (PPPs)
Rail Investment and Improvement Act of 2008,            OIG is performing an analysis to (1) determine the
OIG is auditing Amtrak’s utilization of its existing    extent to which PPPs can address transporta-
equipment maintenance and repair facilities. Our        tion infrastructure funding needs, (2) identify any
objectives are to examine (1) Amtrak’s use of its       disadvantages to the public sector of PPP trans-
three back shop facilities; (2) the productivity of     actions compared to more traditional financing
these facilities; and (3) the extent to which Amtrak    methods, and (3) identify any factors that allow
is maximizing opportunities for utilizing each fa-      both the private and public sectors to derive value
cility, including the provision of maintenance and      from PPP transactions.
repair services to other rail carriers.

                                                        PLANNED
High Speed Rail Forecasting Best
Practices                                               Review of Amtrak’s Financial
                                                        Accounting and Reporting System
OIG is conducting an evaluation of High Speed
Rail (HSR) and Intercity Passenger Rail (IPR) fore-     Pursuant to section 203(b) of the Passenger Rail
casting practices. The objectives of this evaluation    Investment and Improvement Act of 2008, OIG is
are to (1) assess the strengths and weaknesses          planning to conduct a review of Amtrak’s modern
of various methodologies used to develop HSR            financial accounting and reporting system to en-
and IPR ridership and revenue forecasts, cost           sure that it accomplishes the purposes for which
estimates and public benefits valuations; and (2)       it was intended.
identify best practices in the preparation of these
forecasts.
                                                        Adequacy of Measures Taken to
Rail Service Disruptions                                Address the Solvency of the Highway
                                                        Trust Fund
As directed by the DOT Appropriations Act, OIG
is examining freight rail service disruptions since     OIG plans to conduct an audit to evaluate the
2004, with a focus on the timeliness of shipments       reasonableness of the Department’s policies and
of commodities such as coal, wheat, ethanol,            procedures to monitor the solvency of the High-
and lumber and making legislative and regulatory        way Trust Fund and compare these policies and
recommendations to reduce such disruptions in           procedures to those used by the FAA to manage
the future.                                             the Airport and Airway Trust Fund.




                                    Semiannual Report to Congress    53
State Capacity to Meet High Speed                      State-Railroad Operating Agreements
Rail (HSR) Demands                                 OIG plans to examine what has and has not
OIG plans to review and evaluate (1) the range worked in terms of enforceable agreements be-
of capabilities in the states to plan, design, and tween states and host railroads that ensure public
manage HSR projects; (2) what constitutes a benefits are derived from the public investment in
strong state passenger rail department and how High Speed Rail. Our goal would be to develop
those developed; and (3) examples of how state best practices in this area.
capacity was created to manage other state-led
federally-funded programs, such as Federal-aid
highways.




                                   Work Planned and in Progress      54
FINANCIAL AND INFORMATION TECHNOLOGY
IN PROGRESS

Security and Privacy Controls Over the                 security architecture in developing ADS–B, and (3)
                                                       security risks have been identified and mitigated
Medical Support System
                                                       by the contractor.
At the request of the Chairmen of the House
Committee on Transportation and Infrastructure         DOT’s Implementation of Personal
and its Subcommittee on Aviation, OIG is deter-
mining whether (1) airmen’s personally identifiable    Identity Verification Cards
information is properly secured from unauthorized
                                                       OIG is determining if DOT (1) has an effective pro-
use or access, and (2) FAA has made progress
                                                       cess to issue, maintain, and terminate functional
in establishing a program to flag airmen holding
                                                       PIV cards for employees and contractors; and (2)
a current medical certificate while receiving dis-
                                                       is adequately protecting the personal information
ability pay.
                                                       collected, stored, processed, and transmitted on
                                                       PIV systems, based on the Presidential Directive
Improper Payments in the Airport                       12 “Policy for a Common Identification Standard
                                                       for Federal Employees and Contractors”.
Improvement Program
OIG is determining whether FAA has adequate            Security of DOT ARRA Web
controls to prevent and detect improper payments
to grant recipients of the Airport Improvement         Applications
Program.
                                                       OIG is determining if (1) DOT’s recovery websites
                                                       and database systems are properly configured to
NextGen Automatic Dependent                            minimize the risk of cyber attacks, and (2) access
                                                       to recovery websites and database systems are
Surveillance Broadcast (ADS-B)
                                                       adequately controlled to ensure accountability
Security and Controls                                  and integrity of ARRA data.

At the request of the Chairmen and Ranking
Members of the House Committee on Transporta- DOT’s Information Security Program
tion and Infrastructure and its Subcommittee on and Practices for Fiscal Year 2010
Aviation, OIG is determining whether (1) ADS–B
security requirements specified in the contract OIG is performing the annual review required by
have been properly defined and satisfied by the the Federal Information Security Management Act
contractor, (2) the contractor is following FAA’s of 2002. We will determine the effectiveness of



                                   Semiannual Report to Congress    55
DOT’s information security program and practices        Implementation of Single Audit
and complete OMB’s template for security as-
                                                        Recommendations and Cost Recovery
sessments and performance measures.
                                                     OIG is determining if DOT OA’s have (1) issued
DOT Network Access Accounts                          management decisions approving grantees’
                                                     corrective action plans, (2) ensured the prompt
Management                                           implementation of corrective actions by grantees,
                                                     (3) taken timely action to recover questioned
OIG is determining if the Department is (1) properly
                                                     costs, and (4) used single audit results to identify
identifying all users and network devices for ac-
                                                     grantees requiring close monitoring.
count management; (2) adequately establishing,
activating, modifying, disabling, and removing ac-
counts; and (3) sufficiently authenticating account PLANNED
users.
                                                        FHWA Improper Payment Controls
SAS-70 Review of FAA Enterprise                         OIG will perform a review of the controls imple-
Center Security Controls                                mented by FHWA headquarters and divisional
                                                        offices to prevent and detect improper payments
OIG is performing a quality control review of           to Federal-aid highway grant recipients.
the audit performed by an independent public
accounting firm and determining if the audit is
performed in accordance with applicable audit
                                                        Quality Controls Reviews of Single
standards.                                              Audits on DOT Grantees
                                                        OIG will perform quality control reviews of the au-
Quality Control Review of Fiscal Years                  dits performed by independent public accounting
2010 and 2009 DOT Consolidated                          firms on grant recipients’ use of DOT funds.

Financial Statements, FAA Financial
Statements, and NTSB Financial
Statements
OIG is performing a quality control review of
the audit performed by independent public ac-
counting firms and determining if the audits were
performed in accordance with applicable auditing
standards.




                                    Work Planned and in Progress      56
ACQUISITION AND PROCUREMENT
IN PROGRESS

Planning for FAA’s Acquisition                          FHWA’s Oversight of Federal-aid State
Workforce Requirements                                  ARRA Contract Award Practices
OIG will assess the adequacy of FAA’s plans for         OIG will determine whether FHWA’s oversight of
determining its acquisition workforce needs and         state level contracting award practices is adequate
progress for implementing actions to address            to ensure compliance with laws and regulations.
those needs. Specifically, we will assess how FAA
(1) determined and identified the required skills
and competencies needed for its current and
                                                        Acquisition Organization Scan
future acquisition workforce; (2) addressed gaps     OIG is conducting an audit to assess the extent to
in the hiring and development of its acquisition     which OST has implemented an efficient, effective,
workforce; and (3) identified the programs, poli-    and accountable acquisition process as outlined
cies, and practices needed to ensure an adequate     in sources including OMB Circular A-123 and the
workforce.                                           Government Accountability Office’s Framework
                                                     for Assessing the Acquisition Function at Federal
Use of Price and Cost Analysis                       Agencies (2005). In this assessment, OIG is ad-
                                                     dressing the following aspects as they relate to
for Newly Awarded and Modified                       OST’s acquisition function: (1) organizational align-
Contracts                                            ment and leadership (i.e., alignment of acquisition
                                                     with DOT’s mission needs and provision of sound
OIG is determining whether FAA (1) sufficiently jus- and ethical leadership); (2) policies and processes
tified and properly reviewed and approved the use (i.e., the implementation of clear and transparent
of non-competitive contracts, and (2) adequately policies and processes for its planning, award,
performed and properly documented price and administration, and oversight of acquisitions); and
cost analyses applicable to the contracts.           (3) knowledge and information management (i.e.,
                                                     the use of technologies, tools, and data to help
FMCSA’s Contract Practices                           managers and staff make well-informed decisions
                                                     related to planning and implementing their acqui-
At the request of FMCSA’s former Administra- sitions).
tor, OIG is assessing whether FMCSA’s contract
award and administration practices comply
with applicable laws and regulations and follow
agency-specific guidance.




                                    Semiannual Report to Congress    57
PLANNED

FAA’s Award of Systems Engineering
2020 Contracts
At the request of John L. Mica, Ranking Member,
House of Representatives Committee on Trans-
portation and Infrastructure and Thomas E. Petri,
Ranking Member, of the Committee’s Subcom-
mittee on Aviation, we will review whether FAA’s
proposed Systems Engineering 2020 (SE-2020)
contractual arrangements–valued at up to $7.1
billion–are being structured and implemented to
meet NextGen Program objectives.


FTA’s Oversight of Grantees’ ARRA
Contract Award and Administration
Practices
OIG will determine whether FTA’s oversight of
transit administration-level contracting practices
is adequate to ensure compliance with laws and
regulations.




                                   Work Planned and in Progress      58
                                              Statistical Performance Data



Summary of Performance
Office of Inspector General
October 1, 2009 - March 31, 2010
(Dollars in Thousands)

Reports Issued                                                                 48


Recommendations Issued                                                        188


Congressional Testimonies                                                       5


Total Financial Recommendations                                         $805,208


   That Funds Be Better Used                                            $800,000
   Questioned Costs                                                       $5,208


Indictments                                                                    39


Convictions                                                                    31


Fines, Restitutions, Recoveries, and Cost Avoidance                      $18,868




                                    Semiannual Report to Congress       59
Audits
Completed OIG Reports
October 1, 2009 - March 31, 2010
(Dollars in Thousands) *


                                Number of        Number of           Questioned   Unsupported     Funds to Be
         Type of Review          Reports      Recommendations          Costs         Costs      Put to Better Use


Internal Audits
Performance Audits                 10                  92                 $0          $0              $0


Financial Audits                    5                  51                 $0          $0          $800,000


Attestation Engagements             1                   0                 $0          $0              $0


Other OIG Reports                   1                   0                 $0          $0              $0


Total Internal Audit Reports       17                 143                 $0          $0          $800,000
Grant Audits
Audits of Grantees Under
Single Audit Act                   31                  45             $5,208          $0              $0

Total Completed OIG Reports        48                 188             $5,208          $0          $800,000


*The dollars shown are the amounts reported to management. The actual amounts may change
during final resolution.


Department of Transportation programs and operations are primarily carried out by the Department’s
own personnel and recipients of Federal grants. Audits by DOT’s Office of Inspector General, as a
result, generally fall into three categories: internal audits of Departmental programs and operations,
audits of grant recipients, and other OIG reports. The table above shows OIG’s results for the 6
months covered by this report.




                                    Statistical Performance Data    60
OIG Reports with Recommendations that Questioned Costs
October 1, 2009 - March 31, 2010
(Dollars in Thousands)

                                      Number of            Number of           Questioned   Unsupported
                                       Reports          Recommendations          Costs         Costs


A.   For which no management              29                    50             $56,903          $0
     decision had been made
     by the start of the reporting
     period




B.   Which were issued during             18                    23              $5,208          $0
     the reporting period


     Totals (A+B)                         47                    73             $62,111          $0


C.   For which a management               39                    60             $58,281          $0
     decision was made during
     the reporting period


     (i) dollar value of disallowed       26                    37             $43,268          $0
     costs *


     (ii) dollar value of costs not       22                    29             $15,107          $0
     disallowed *


D.   For which no management              8                     13              $3,829          $0
     decision had been made
     by the end of the reporting
     period


* Includes reports and recommendations where costs were both allowed and disallowed.




                                      Semiannual Report to Congress      61
OIG Reports with Recommendations that Funds Be Put to Better Use
October 1, 2009 - March 31, 2010
(Dollars in Thousands)

                                                                         Number of        Funds to Be
                                              Number of Reports       Recommendations   Put to Better Use


A.   For which no management decision                  0                     0                $0
     had been made by the start of the
     reporting period


B.   Which were issued during the                      1                     1            $800,000
     reporting period


     Totals (A+B)                                      1                     1            $800,000


C.   For which a management decision                   1                     1            $800,000
     was made during the reporting period


     (i) dollar value of recommendations               1                     1            $800,000
     that were agreed to by management *


     (ii) dollar value of recommendations              0                     0                $0
     that were not agreed to by
     management *


D.   For which no management decision                  0                     0                $0
     had been made by the end of the
     reporting period



* Includes reports and recommendations where costs were both allowed and disallowed.




                                       Statistical Performance Data    62
OIG Reports Recommending Changes for Safety, Economy or Efficiency
October 1, 2009 - March 31, 2010

                                                                                         Number of
                                                                 Number of Reports    Recommendations


A.    For which no management decision had been                          28                 55
      made by the start of the reporting period


B.     Which were issued during the reporting period                     23                164


      Totals: (A+B)                                                      51                219


C. For which a management decision was made                              44                183
   during the reporting period *


D. For which no management decision had been                             11                 36
   made by the end of the reporting period *


* Includes reports where management both made and did not make a decision on recommendations.


                                          Number of Reports                            Number of Safety,
                      Number of Total    with Safety, Economy,                            Economy, or
                      Reports for this       or Efficiency          Number of Total        Efficiency
     Audit Type       Reporting Period    Recommendations          Recommendations     Recommendations
Performance                 10                    9                          92               92
Financial                    5                    4                          51               50
Attestation                  1                    0                           0               0
Other                        1                    0                           0               0
Grants                      31                   10                          45               22
TOTALS                      48                   23                          188             164




                                         Semiannual Report to Congress       63
Management Decisions Regarding OIG Recommendations
October 1, 2009 - March 31, 2010
(Dollars in Thousands)

                                Number of       Number of            Questioned   Unsupported     Funds to Be
                                 Reports     Recommendations           Costs         Costs      Put to Better Use
Unresolved as of 10/01/2009        53                105             $56,903          $0              $0


Audits with Findings During        40                188              $5,208          $0          $800,000
Current Period


Total to be Resolved               93                293             $62,111          $0          $800,000
Management Decisions:
Audits Prior Period ‡              45                 82             $55,548          $0              $0
Audits Current Period ‡            33                162              $2,733          $0          $800,000


Total Resolved                     78                244             $58,281          $0          $800,000
Aging of Unresolved Audits: *
Less than 6 mos. old               10                 26              $2,474          $0              $0
6 mos. – 1 year                    5                  9               $1,355          $0              $0
1 year – 18 mos.                   1                  2                   $0          $0              $0
18 mos. – 2 years                  1                  2                   $0          $0              $0
Over 2 years old                   2                  10                  $0          $0              $0


Unresolved as of 03/31/2010        19                 49              $3,829          $0              $0


‡ Includes reports and recommendations where costs were both allowed and disallowed.
* Considered unresolved if management decisions have not been made on all report recommendations.




                                    Statistical Performance Data    64
Office of Inspector General Reports
October 1, 2009 – March 31, 2010

DEPARTMENTWIDE

Internal Audits: Performance/Attestation – 2 reports


    Report        Date                        Title                           Focus of Report/ Recommendations

MH-2010-002   10/06/2009   Status of Operating Administrations’        Nearly all Operating Administrations have taken
                           Processes to Conduct Limited Quality steps to ensure that Recovery Act recipients
                           Reviews of Recovery Act Recipient           comply with Section 1512 reporting require-
                           Data                                        ments. Currently two out of five Operating
                                                                       Administrations have drafted processes. We will
                                                                       continue to monitor these efforts.


MH-2010-024   11/30/2009   DOT’s Implementation of the American The OIG identified two types of vulnerabilities
                           Recovery and Reinvestment Act:              and recommended that the DOT TIGER Team
                           Continued Management Attention is           develop an action plan within 30 days of the
                           Needed to Address Oversight Vulner-         date of our report that lays out the steps that
                           abilities                                   DOT will take or has already taken to eliminate
                                                                       current and potential vulnerabilities.


FEDERAL AVIATION ADMINISTRATION

Internal Audits: Financial – 2 reports

    Report        Date                        Title                           Focus of Report/ Recommendations

QC-2010-001   10/01/2009   Quality Control Review of Controls          Controls that have been placed in operation
                           Over the Enterprise Service Center          are suitably designed. In addition, controls
                                                                       were operating effectively except in the areas
                                                                       of logical access and segregation of duties
                                                                       concerning CASTLE system operations.


QC-2010-010   11/13/2009   Quality Control Review of Audited           Unqualified opinion on financial statements
                           Financial Statements for FY 2009 and
                           FY 2008, Federal Aviation Administra-
                           tion


                                       Semiannual Report to Congress       65
Internal Audits: Performance/Attestation – 3 reports
    Report        Date                         Title                         Focus of Report/ Recommendations
AV-2010-003   10/21/2009   Status of the Aviation Rulemaking          Most initiatives are not being used or are
                           Committee’s 77 Initiatives for Reduc- used infrequently due to limited tactical need,
                           ing Delays in the New York Area            operational and technical problems, unfinished
                                                                      testing, and controller/airline issues. While FAA
                                                                      has begun addressing these issues, much work
                                                                      remains to be done.


AV-2010-042   02/16/2010   FAA Oversight of American Airlines’        FAA lacked the oversight needed to identify the
                           Maintenance                                types of issues identified. Four of which were
                           Programs                                   found to be valid. OIG has requested additional
                                                                      information to validate that the issues identified
                                                                      have been fully addressed.

FI-2010-006   11/02/2009   FAA’s Progress in Enhancing Air            FAA made progress in preparing the Technical
                           Traffic Control Systems Security           Center to serve as the recovery site, yet several
                                                                      unresolved technical challenges, staffing issues,
                                                                      and funding requirements could delay recovery
                                                                      site readiness.



Grant Audits: Audits of Grantee Under Single Audit Act – 11 reports
                                                                                                  Focus of Report/
    Report        Date                                    Title
                                                                                                 Recommendations
SA-2010-012   11/16/2009   Chelan County                                                     $44,716 questioned
SA-2010-014   11/16/2009   City of Morgantown, West Virginia                                 $10,568 questioned
SA-2010-015   11/16/2009   Commonwealth Ports Authority, Northern Mariana Islands            $428,526 questioned
SA-2010-021   11/16/2009   State of Illinois                                                 Improve grantee oversight
SA-2010-027   11/30/2009   Santa Cruz County, Arizona                                        $577,088 questioned
SA-2010-031   12/10/2009   King County, Washington                                           $11,238 questioned
SA-2010-037   01/13/2010   City of Gainesville, Georgia                                      $54,218 questioned
SA-2010-043   02/18/2010   City of Benson, Arizona                                           $12,447 questioned
SA-2010-044   02/18/2010   Owensboro-Daviess County Regional Airport Authority               $166,179 questioned
SA-2010-046   03/09/2010   Gulfport-Biloxi Regional Airport Authority                        $1,341,718 questioned
SA-2010-048   03/09/2010   City of Lincoln, California                                       $99,936 questioned




                                       Statistical Performance Data    66
FEDERAL HIGHWAY ADMINISTRATION

Internal Audits: Performance/Attestation –2 reports

   Report         Date                         Title                                  Focus of Report/
                                                                                     Recommendations
MH-2010-030 12/08/2009       Transportation Technology Innovation      OIG found that TTID addressed statutory goals,
                             Program (TTID)                            but FHWA did not optimize the program’s
                                                                       benefits for the public partners. FHWA needs to
                                                                       increase its oversight of the TTID program


MH-2010-039 01/14/2010       Assessment of FHWA Oversight of           FHWA lacks sufficient data to evaluate states’
                             the Highway Bridge Program and the        use of HBP funds and the criteria and guidance
                             National Bridge Inspection Program        necessary to determine whether states demon-
                                                                       strate overall compliance with bridge inspection
                                                                       standards under the NBIP.


Grant Audits: Audits of Grantee Under Single Audit Act – 8 reports

    Report        Date                                 Title                                   Focus of Report/
                                                                                              Recommendations
QC-2010-032   12/10/2009 Quality Control Review of the Single Audit of
                           South Carolina Department of Transportation
QC-2010-041   02/02/2010 Quality Control Review of the Single Audit of
                           State of New York
SA-2010-017   11/16/2009 State of New Mexico Energy, Minerals and National             $955,312 questioned
                           Resources
SA-2010-018   11/16/2009 South Carolina Department of Transportation                   Improve grantee oversight
SA-2010-019   11/16/2009 Washington County, Florida                                    $10,200 questioned
SA-2010-025   11/30/2009 City of Tacoma, Washington                                    $20,164 questioned
SA-2010-029   12/07/2009 New Mexico Department of Transportation                       Improve grantee oversight
SA-2010-033   12/17/2009 State of Maine                                                Improve grantee oversight




                                       Semiannual Report to Congress      67
FEDERAL TRANSIT ADMINISTRATION

Grant Audits: Audits of Grantee Under Single Audit Act – 16 reports

                                                                                            Focus of Report/
   Report         Date                                  Title
                                                                                           Recommendations
QC-2010-004   10/26/2009 Quality Control Review of the Single Audit of
                           Los Angeles County Metropolitan Transportation Authority
QC-2010-005   10/26/2009 Quality Control Review of the Single Audit of
                           Metropolitan Transportation Authority
QC-2010-032   12/10/2009 Quality Control Review of the Single Audit of
                           South Carolina Department of Transportation
SA-2010-013   11/16/2009 Metropolitan Transportation Authority                        Improve grantee oversight
SA-2010-016   11/16/2009 Attleboro Redevelopment Authority                            $62,567 questioned
SA-2010-018   11/16/2009 South Carolina Department of Transportation                  Improve grantee oversight
SA-2010-020   11/16/2009 City of Rome, New York                                       $800,000 questioned
SA-2010-022   11/17/2009 Regional Transportation District                             $21,590 questioned
SA-2010-026   11/30/2009 Pierce Transit, Tacoma, WA                                   $435,784 questioned
SA-2010-028   11/30/2009 Tri-County Metropolitan District of Oregon                   Improve grantee oversight
SA-2010-029   12/07/2009 New Mexico Department of Transportation                      Improve grantee oversight
SA-2010-031   12/10/2009 King County, Washington                                      $11,238 questioned
SA-2010-035   01/13/2010 Washington Metropolitan Area Transit Authority               Improve grantee oversight
SA-2010-036   01/13/2010 Massachusetts Bay Transportation Authority                   Improve grantee oversight
SA-2010-038   01/13/2010 City of Jonesboro, Arkansas                                  $155,480 questioned
SA-2010-047   03/09/2010 Dallas Area Rapid Transit                                    Improve grantee oversight




                                        Statistical Performance Data    68
NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

Internal Audits: Performance/Attestation – 1 report

                                                                                        Focus of Report/
    Report       Date                               Title
                                                                                       Recommendations
FI-2010-040   02/01/2010 Review of Fiscal Year (FY) 2009 Drug Control Funds OIG found no information that the
                           and Performance Summary Reporting                  NHTSA FY 2009 Performance Sum-
                                                                              mary Report was not presented in
                                                                              conformity with the ONDCP Circular.


Grant Audits: Audits of Grantee Under Single Audit Act – 1 report

                                                                                        Focus of Report/
    Report         Date                              Title
                                                                                       Recommendations
SA-2010-029   12/07/2009     New Mexico Department of Transportation          Improve grantee oversight




NATIONAL TRANSPORTATION SAFETY BOARD

Internal Audits: Financial – 1 report

                                                                                          Focus of Report/
    Report         Date                                 Title
                                                                                         Recommendations
QC-2010-009   11/10/2009     Quality Control Review of NTSB’s FY 2009 and FY 2008
                             Financial Statements




                                     Semiannual Report to Congress      69
OFFICE OF THE SECRETARY OF TRANSPORTATION

Internal Audits: Financial – 1 report

                                                                                       Focus of Report/
    Report        Date                                  Title
                                                                                      Recommendations
QC-2010-011   11/16/2009    Monitoring of FY 2009 Financial Statements         Unqualified opinion on
                                                                               financial statements and put
                                                                               $800,000,000 to better use


Internal Audits: Performance/Attestation –4 reports

                                                                                       Focus of Report/
    Report        Date                                  Title
                                                                                      Recommendations
FI-2010-023   11/18/2009    DOT’s Information Security Program and Practices   Overall, the departmental
                                                                               information security program is
                                                                               not as effective as it should be,
                                                                               and is not compliant with all
                                                                               key FISMA and OMB require-
                                                                               ments.


PT-2010-008   11/16/2009    DOT’s FY 2010 Top Management Challenges            As required by law, the OIG
                                                                               identified the top challenges
                                                                               facing DOT for FY 2010.
                                                                               .
ZA-2010-034   01/07/2010    DOT’s Suspension and Debarment (S&D) Program       OIG found weaknesses in
                                                                               DOT’s S&D policies, proce-
                                                                               dures, and internal controls.
                                                                               Recommendations were made
                                                                               to DOT’s Senior Procurement
                                                                               Executive and to FAA to
                                                                               address these areas.




                                        Statistical Performance Data    70
PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION

Internal Audits: Performance/Attestation –1 report

                                                                                         Focus of Report/
    Report        Date                              Title
                                                                                        Recommendations
AV-2010-045   03/04/2010    New Approaches Needed In Managing PHMSA’s             OIG found deficiencies in
                            Special Permits and Approvals Program                 PHMSA’s process and made
                                                                                  recommendations to correct.



SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION

Internal Audits: Financial – 1 report

                                                                                         Focus of Report/
    Report        Date                              Title
                                                                                        Recommendations
QC-2010-007   11/05/2009    Quality Control Review of the Saint Lawrence Seaway   Unqualified opinion on financial
                            Development Corporation Financial Statements Fiscal   statements
                            Years 2009 and 2008




                                    Semiannual Report to Congress      71
Office of Inspector General Congressional Testimonies
October 1, 2009 - March 31, 2010

 Control No.      Date                          Subject                                       Before
CC-2010-001    10/28/2009 Actions Needed to Meet Expectations for the        Committee on Transportation and
                           Next Generation Air Transportation System in      Infrastructure
                           the Mid-Term                                      Subcommittee on Aviation
                                                                             U.S. House of Representatives


CC-2010-005    11/18/2009 Actions Needed to Improve Safety Oversight         Committee on Homeland Security
                           and Security at Aircraft Repair Stations          Subcommittee on Transportation
                                                                             Security and Infrastructure Protection
                                                                             U.S. House of Representatives


CC-2010-028    2/4/2010    Progress and Challenges with FAA’s Call to        Committee on Transportation and
                           Action for Airline Safety                         Infrastructure
                                                                             Subcommittee on Aviation
                                                                             U.S. House of Representatives


CC-2010-035    3/17/2010   The Federal Aviation Administration’s Oversight Committee on Transportation
                           of On-Demand Aircraft Operators                   Infrastructure
                                                                             Subcommittee on Aviation
                                                                             U.S. House of Representatives




CC-2010-036    3/18/2010   Weaknesses in DOT’s Suspension and Debar-         Committee on Oversight and
                           ment Program Limit its Protection of Govern-      Government Reform
                           ment Funds                                        U.S. House of Representatives




                                       Statistical Performance Data    72
Unresolved Recommendations Over 6 Months Old
Cited in Semiannual Report for October 1, 2005 – March 31, 2006

                         Title                                  Report Number      Final Issue Date
Air Carriers Use of Non-Certificated Repair Facilities           AV-2006-031         12/15/2005




Cited in Semiannual Report for April 1, 2007 – September 30, 2007

                         Title                                  Report Number      Final Issue Date
Review of Amtrak Board of Directors                              CR-2007-074         9/14/2007




Cited in Semiannual Report for April 1, 2008 – September 30, 2008

                         Title                                  Report Number      Final Issue Date
Review of FAA’s Oversight of Airlines’ Regulatory                AV-2008-057         6/30/2008
Partnership Programs and Internal Review Process




Cited in Semiannual Report for October 1, 2008 - March 31, 2009

                         Title                                  Report Number      Final Issue Date
Review of FAA’s Process for Investigating and                    AV-2009-045         3/24/2009
Reporting Operational Errors and Pilot Deviations




                                          Semiannual Report to Congress      73
Cited in Semiannual Report for April 1, 2009 - September 30, 2009

                         Title                                    Report Number   Final Issue Date
State of Texas                                                     QC-2009-102      9/29/2009
Federated States of Micronesia National                            QC-2009-104      9/29/2009
Government
Audit on Chicago Controller Staffing and Fatigue                   AV-2009-065      6/29/2009
City of Fort Worth, TX                                             QC-2009-058      5/19/2009
FAA is Not Realizing the Full Benefits of the Aviation             AV-2009-057      5/14/2009
Safety Action Program




                                            Statistical Performance Data    74
Investigations
Statistical Outcomes
October 1, 2009 - March 31, 2010

                                Financial Impact
Fines (and Special Assessments)                                           $382,975
Restitution                                                              $3,857,326
Recoveries                                                              $10,045,000
Cost Avoided                                                             $4,583,000
Total                                                                   $18,868,301


Referrals
Referred for Prosecution                                                        43
Accepted for Prosecution                                                        43
Declined for Prosecution                                                        46
Civil Prosecution Referral                                                       4
Civil Prosecution Acceptance                                                     4
Civil Prosecution Declination                                                    3


Judicial and Administrative Actions
Indictments                                                                     39
Convictions                                                                     31
Years Sentenced                                                                 50
Years Supervised Release                                                        52
Years Probation                                                                 41
Hours of Community Service                                                     574
Suspension/Debarment                                                            15
Employee Removal                                                                 2
Employee Suspension                                                              1
Resignation/Retirement                                                           1
Federal Funding Terminated                                                       1



                                    Semiannual Report to Congress       75
Redelivery of Product/Services                                            1
Enforcement Action Taken                                                  2


Investigative Workload
Investigations Opened                                                    99
Investigations Closed                                                   125


OIG Hotline Contacts
Email                                                                  1,811
Fax                                                                      41
Letters                                                                  48
Web                                                                     106
Telephone                                                               381
Total                                                                  2,387




                                 Statistical Performance Data    76
Profile of All Pending Investigations as of March 31, 2010

                                                         Types of Cases

                        Number of                                                               Motor             Transportation
                      Investigations   Aviation   Contract    Employee    Grant        Hazmat   Carrier   Other       Safety
DEPARTMENTWIDE              1             0          1            0        0             0        0        0            0
FAA                        155           101         7           16        19            7        0        5            0
FHWA                       122            0          1            3       115            1        0        2            0
FMCSA                      53             0          0            2        0             8        43       0            0
FRA                         5             0          1            1        0             2        0        1            0
FTA                        30             0          0            0        29            0        0        0            1
MARAD                       5             0          1            1        1             1        0        1            0
NHTSA                      11             0          0            1        2             0        0        1            7
OIG                         2             0          0            1        0             0        0        1            0
OST                         7             0          3            3        0             0        0        1            0
OTHER                       2             0          0            0        1             0        1        0            0
PHMSA                      27             0          0            3        0             24       0        0            0
RITA                        3             0          1            1        0             0        0        1            0
TOTALS                     423           101        15           32       167            43       44       13           8
Percent of total                        24%         4%           8%       39%           10%      10%       3%          2%


Within the Office of Investigations, the Special Investigations staff investigates disclosures that the Office of
Special Counsel (OSC) refers to the Transportation Secretary which may involve possible (1) violations of a
law, rule, or regulation; (2) gross mismanagement; (3) gross waste of funds; (4) abuse of authority; and/or (5) a
substantial and specific danger to public health or safety. The results of these investigations are typically used
by DOT’s General Counsel as the primary basis for developing the Secretary’s formal response to the OSC
referrals and for determining whether there is sufficient information to conclude, with a substantial likelihood,
that one of the aforementioned disclosed conditions exists. Our current inventory consists of 15 investigations
that are based on OSC whistleblower complaints. Twelve of those investigations are in the area of Aviation
Safety while the remaining 3 are in the area of Employee Integrity.




                                          Semiannual Report to Congress          77
Statistical Performance Data      78
                                           2009 Awards and Recognition




                                                 2009 Awards and Recognition




O
        n October 30, 2009, a ceremony was held in Washington, DC to recognize the Office of In-
        spector General employees for their contributions over the preceding year. The Inspector
        General also recognized OIG employees receiving awards for their accomplishments from the
President of the United States, the Secretary of Transportation, the Council of the Inspectors General
on Integrity and Efficiency, and other local, state and Federal agencies and councils.




                                   Semiannual Report to Congress    79
              Presidential Rank Awards and Recognition

Distinguished Executive Award
Every year since the establishment of the Senior Executive Service (SES) in 1978, the President has
conferred the ranks of Distinguished Executive on a select group of career members of the SES who
have provided exceptional service to the American people over an extended period of time. These
senior executives are outstanding leaders who consistently demonstrate strength, integrity, industry,
and a relentless commitment to public service. The Distinguished Executive rank is awarded to leaders
who achieve extraordinary results.

      Theodore Alves,
      Deputy Inspector General (retired), J-2,
      Washington, DC




                                   2009 Awards
                                        Awards and Recognition    80
                    Secretarial Awards and Recognition

Award for Meritorious Achievement
This award is given by the Secretary in recognition of meritorious service to DOT and the Federal
government, and for exceptional achievement which substantially contributed to the accomplishment
of DOT’s mission or major programs.

      Richard McGrade,
      Special Agent, JRI-2,
      New York, NY



Award for Excellence
This award is granted to employees who have achieved outstanding performance in all aspects of their
work, warranting special commendation.

      Deborah Bryant,
      Staff Assistant, JA-40,
      Washington, DC


      Dorothy Bowie,
      Senior Administrative Services Specialist, JM-10,
      Washington, DC




                                  Semiannual Report to Congress      81
Team Award
This award is in recognition of meritorious contributions of high value to DOT in meeting one or more of
the Department’s strategic goals as well as exceptional performance which results in the improvement,
reinvention, or reengineering of practices, operations, and customer services.



      National Bridge Safety Team
                Eric Mader, Program Director, JA-40, Washington, DC
                Thomas Yatsco, Program Director, JA-40, Washington, DC
                Rodolfo Perez, Engineer Advisor, JA-40, Washington, DC
                Petra Swartzlander, Statistician, JA-2, Washington, DC
                Christopher Brothers, Project Manager, JA-40, Washington, DC
                Harriet Lambert, Writer-Editor, JA-40, Washington, DC
                Jean Tanaka, Senior Analyst, JA-40, Washington, DC
                Aron Wedekind, Engineer, JA-40, Washington, DC




Partnering for Excellence Award
This award recognizes intermodal teams/groups that have used the Partnering for Excellence model to
further oneDOT activities supporting one or more of the goals of the Department’s Strategic Plan.



      2009 DOT Presidential Transition Team
                Madeline Chulumovich, Special Assistant for Economic Recovery, J-2,
                Washington, DC
                Ellen Craig, Staff Assistant, J-2, Washington, DC
                Brian Dettelbach, Assistant Inspector General for Legal, Legislative and External
                Affairs, J-3, Washington, DC


      FMCSA Southern Service Center and OIG Investigative Region 4 Team
                John Long, Special Agent-in-Charge, JRI-4, Atlanta, GA
                Ramon Sanchez, Senior Special Agent, JRI-4, Atlanta, GA




                                    2009 Awards and Recognition    82
                      Inspector General Special Honors
Career Service Recognition
The following current OIG employees will have attained a milestone in their Federal service career as
of the end of 2009.



      5 years of service
               Amy Berks
               Colby Britton
               Brian Chapman
               Codruta Costache
               Brian Gallagher
               Marshall Jackson
               Won Kim
               Joyce Koivunen
               Betty Krier
               Stefanie McCans
               Meredith McDaniel
               Ram Murthy
               Andrea Nossaman
               Tim Roberts
               Ashley Strickland
               Anita Visser
               Siron Weaver
               Aron Wedekind




                                  Semiannual Report to Congress      83
10 years of service
       Curt Boettcher
       Pamela Castleberry
       Jeffrey Chan
       Patrick Conley
       Charles Dionne
       Malik Freeman
       Kevin George
       Ingrid Harris
       Shannon Jarvis
       Seth Kaufman
       Reginald Lee
       Edith Makoge
       Vonya Matthews
       Calvin Moore
       Jelilat Ojodu
       Nathalie Radway
       Mona Sterlacci
       Stephen Smith
       Roy Vaughan
       Ronald Wormsley
       Thomas Yatsco


15 years of service
       Joan Becker
       Nancy Benco
       Jennifer Blake
       Ann Calvaresi-Barr
       Daniel Helzner
       Santos Ramirez
       Darrell Riegel
       Galen Steele
       Grace Urquhart
       Jacquie Wente
       Robert Westbrooks
       Ann Wright




                        2009 Awards
                             Awards and Recognition    84
20 years of service
       Maxine Barnes
       Larretha Blackmon
       Sharon Caboga
       Madeline Chulumovich
       Vito Corso
       Franklin Davenport
       Lisa Glazzy
       Nicholas Guggino
       Louis King
       LaKarla Lindsay
       Lisa Mackall
       Charles Miller
       Peggy Moskaluk
       William Owens
       Omer Poirier
       Melissa Pyron-Satchell
       Lillian Slodkowski
       Max Smith
       William Swallow
       Marvin Tuxhorn
       Carlos Vazquez
       Anthony Wysocki


25 years of service
       Charlene Banks
       George Banks
       Kimberley Bolding
       Robin Koch
       Anne Longtin
       Joseph McGovern
       Kenneth Prather
       Gerard Tucker




                        Semiannual Report to Congress      85
30 years of service
       Dorothy Bowie
       James Corcoran
       Sandra DeLost
       Terrence Letko
       Sheila Payne Davis
       Mark Peters
       Mark Rielly
       Henry Rivas
       Frances Stubbs
       Petra Swartzlander
       Mark Zabarsky


35 years of service
       Brenda James


40 years of service
       Sandra Roper
       Frank Schutz




                        2009 Awards
                             Awards and Recognition    86
                              Inspector General Awards
Award for Superior Achievement
This is the highest award granted by the Inspector General. It recognizes performance of assigned
duties in such an exemplary manner as to inspire others, demonstration of unusual initiative or skill in
the development of new or improved work methods and procedures, and notable authorship.

      Andrea Nossaman,
      Writer-Editor, JA-10,
      Washington, DC


      Max Smith,
      Special Agent-in-Charge, JRI-6,
      Fort Worth, Texas




                                   Semiannual Report to Congress      87
Exceptional Civilian Service Award
This is the second-highest award granted by the Inspector General, recognizing performance that is
exceptional among peers, extraordinary results, and other exemplary performance as deemed by the
Inspector General.

      Madeline Chulumovich,
      Special Assistant for Economic Recovery, J-2,
      Washington, DC


      Frank Italia,
      Special Agent, JRI-1,
      Cambridge, Massachusetts


      George Lavanco,
      Project Manager, JA-40,
      New York, NY


      Erika Vincent,
      Director of Special Investigations, JI-3,
      Washington, DC



Marguerite Christensen Award for Excellence in Administration
This is the third-highest award in the OIG. It recognizes professionalism, technical excellence, and
dedication in providing administrative support to the Office of Inspector General.

      Steven Wilson,
      Accountant, JM-30,
      Oklahoma City, OK




                                    2009 Awards
                                         Awards and Recognition    88
Manager of the Year Award
This award is granted to managers who demonstrate exemplary contributions toward achieving the
mission and goals of the OIG, and management of personnel and resources.

      Heather Albert,
      Director, Complaint Center Operations, JI-3,
      Washington, DC


      Michelle Hill,
      Director of Audit Planning, Policy & Tech Support,
      JA-2, Washington, DC


      Eric Mader,
      Program Director, JA-40,
      Washington, DC


      Darren Murphy,
      Program Director, JA-10,
      Seattle, WA




                                  Semiannual Report to Congress      89
Supervisor of the Year Award
This award is granted to supervisors who demonstrate exemplary contributions toward achieving the
mission and goals of the OIG and management of personnel and resources.

      Gloria Denmark,
      Project Manager, JA-10,
      Atlanta, GA


      Dormayne Dillard-Christian,
      Project Manager, JA-60,
      Washington, DC


      Michelle McGee,
      Assistant Special Agent-in-Charge, JRI-9,
      Seattle, WA


      Coletta Treakle,
      Project Manager, JA-10,
      Washington, DC


      Charles Ward,
      Project Manager, JA-10,
      Seattle, WA




                                  2009 Awards
                                       Awards and Recognition    90
Employee of the Year Award
This award is granted to employees who demonstrate dedication and special effort that exceed
performance expectations and contribute significantly to the mission and goals of the Office of
Inspector General.



      Malik Freeman,
      Criminal Investigator, J-2,
      Washington, DC


      Vasily Gerasimov,
      Computer Scientist, JA-20,
      Washington, DC


      Benjamin Huddle,
      Analyst, JA-10,
      Washington, DC


      Anne-Marie Joseph,
      Engineer, JA-40,
      Washington, DC


      Todd Kath,
      Special Agent, JRI-5,
      Chicago, IL


      Gerlinde Major,
      Senior Auditor, JA-10,
      Seattle, WA




                                    Semiannual Report to Congress      91
Michael Masoudian,
Analyst, JA-40,
Washington, DC


Stefanie McCans,
Analyst, JA-10,
Atlanta, GA


Efferem Poynter,
Special Agent, JRI-9,
San Francisco, CA


Robin Redd-Miller,
Investigator, JI-3,
Washington, DC


Tyrone Sharpe,
Economist, JA-50,
Washington, DC


Floyd Sherman,
Senior Special Agent, JRI-6,
Fort Worth, TX


John Sysak,
National Single Audit Coordinator, JA-20,
Baltimore, MD


Amanda Watson,
Auditor, JA-60,
Washington, DC




                               2009 Awards
                                    Awards and Recognition    92
Administrative Professional of the Year Award
This award is granted to administrative or clerical employees who provide outstanding support to the
success of the organization or office.

      Susan Jen,
      Investigative Program Technician, JRI-9,
      San Francisco, CA


      Frances Stubbs,
      Staff Assistant, JA-2,
      Washington, DC




                                  Semiannual Report to Congress    93
New Employee Award
This award is granted to new Federal employees who excel in performance of assignments and
demonstrate significant initiative in developing and furthering their skills.

     Brian Chapman,
     Analyst, JA-40,
     Fort Worth, TX


     Anthony Cincotta,
     Information Technology Specialist, JA-20,
     Washington, DC


     Sara Gragg,
     Analyst, JA-10,
     Atlanta, GA


     Jennifer Hoffman,
     Analyst, JA-10,
     San Francisco, CA


     David Lahey,
     Auditor, JA-60,
     Washington, DC


     Lindsay Steward,
     Analyst, JA-50,
     Washington, DC


     Allison Sturges,
     Analyst, JA-20,
     Baltimore, MD




                                 2009 Awards
                                      Awards and Recognition    94
       Adam Tabaka,
       Analyst, JA-40,
       Washington, DC


       Teri Vogliardo,
       Analyst, JA-10,
       Seattle, WA



Team Award
This award is granted to an OIG office, team, or workgroup whose performance exemplifies teamwork
and whose efforts contribute greatly toward the mission, goals, and operations of the Office of Inspector
General.



       FOIA Process Improvement Team
       In recognition of significant accomplishments in OIG’s Freedom of Information Act
       program that dramatically reduced pending inventory and improved response
       timeliness.


                Amy Berks, Associate Counsel, J-3, Washington, DC
                Barbara Hines, Associate Counsel, J-3, Washington, DC
                Seth Kaufman, Associate Counsel, J-3, Washington, DC
                Regina Raiford, FOIA Officer, J-3, Washington, DC




                                    Semiannual Report to Congress      95
OIG-OST ARRA Fraud Prevention Webcast Team
In recognition of exceptional work in designing and producing a Recovery Act Fraud
Prevention Webcast featuring the Secretary of Transportation and the Inspector
General to raise awareness of all DOT employees of the availability of additional anti-
fraud training.


         Madeline Chulumovich, Special Assistant for Economic Recovery, J-2,
         Washington, DC
         Theodore Doherty III, Special Agent-In-Charge, JRI-1, Cambridge, MA
         Kevin Lynch, Legal Assistant, J-3, Washington, DC
         Omer Poirier, Chief Counsel, J-3, Washington, DC
         Max Smith, Special Agent-In-Charge, JRI-6, Fort Worth, TX
         Ronald Wormsley, Special Agent, JI-2, Washington, DC


FAA’s Management & Maintenance of Air Traffic Control Facilities Team
In recognition of outstanding efforts in conducting the congressionally mandated
review of FAA’s Management and Maintenance of Air Traffic Control Facilities, in which
the team brought attention to FAA’s need to determine the type, quantity, and location
of facilities needed to achieve optimum performance in support of the Next Generation
Airspace System.


         Daniel Raville, Program Director, JA-10, Washington, DC
         Angela McCallister, Project Manager, JA-10, Washington, DC
         Marshall Jackson, Project Manager, JA-10, Washington, DC
         Christopher Frank, Senior Analyst, JA-10, Washington, DC
         Kevan Moniri, Analyst, JA-10, San Francisco, CA
         Doneliya Deneva, Auditor, JA-10, Washington, DC
         Andrea Nossaman, Writer-Editor, JA-10, Washington, DC




                             2009 Awards
                                  Awards and Recognition    96
New York Airports Slot Auction Review Team
In recognition of outstanding teamwork in the congressionally requested review of
Departmental actions and legal issues regarding final rulemaking activities related to
the auctioning of slots at LaGuardia, John F. Kennedy, and Newark airports.


         Omer Poirier, Chief Counsel, J-3, Washington, DC
         Thomas Lehrich, Chief Counsel, J-3, Washington, DC
         Ronald Engler, Director of Special Investigations, JI-3, Washington, DC
         Brian Uryga, Senior Attorney-Investigator, JI-3, Washington, DC
         Francis Danielski, Project Manager, JA-10, Washington, DC
         Coletta Treakle, Project Manager, JA-10, Washington, DC
         Raymond Denmark, Senior Analyst, JA-10, Washington, DC
         Claudia Estrada, Analyst, JA-10, Washington, DC


Information Security Program Audit Team
In recognition of outstanding work in auditing DOT’s information security program and
elevating the importance of computer security at DOT.


         Louis King, Program Director, JA-20, Washington, DC
         Dr. Ping Sun, Program Director, JA-20, Washington, DC
         James Mallow, Project Manager, JA-20, Washington, DC
         Lisette Mercado, Project Manager, JA-20, Washington, DC
         Anthony Cincotta, Information Technology Specialist, JA-20, Washington, DC
         Martha Morrobel, Information Technology Specialist, JA-20, Washington, DC
         Vasily Gerasimov, Information Technology Specialist, JA-20, Washington, DC
         Michael Fruitman, Writer-Editor, JA-20, Washington, DC




                            Semiannual Report to Congress      97
Review of Web Applications Security & Intrusion Detection in Air Traffic
Control Systems Team
In recognition of outstanding performance of the congressionally requested review
of the Web security of Air Traffic Control (ATC) systems, which increased agency
management and lawmaker awareness for the need to strengthen cyber security
protection of ATC systems against attacks .


         Dr. Ping Sun, Program Director, JA-20, Washington, DC
         Mitchell Balakit, Information Technology Specialist, JA-20, Washington, DC
         Vasily Gerasimov, Information Technology Specialist, JA-20, Washington, DC
         Michael Fruitman, Writer-Editor, JA-20, Washington, DC



ARRA Phase 1 and 2 Team
In recognition of exceptional performance in working as a team to improve the efficiency
and effectiveness of DOT’s economic recovery program efforts.


         Thomas Yatsco, Program Director, JA-40, Washington, DC
         Ian Jefferies, Project Manager, JA-40, Washington, DC
         Tyler Apffel, Project Manager, JA-40, Washington, DC
         Frank Schutz, Senior Auditor, JA-40, Washington, DC
         Rafael Nieto, Analyst, JA-40, Washington, DC
         Ryan Sanders, Analyst, JA-40, Washington, DC
         Anita Visser, Senior Auditor, JA-40, Washington, DC
         Aaron Schwarz, Analyst, JA-50, Washington, DC
         Alvin Schenkelberg, Senior Auditor, JA-40, Fort Worth, TX
         Joan Becker, Project Manager, JA-40, Washington, DC
         Scott Williams, Analyst, JA-40, Washington, DC
         John Hannon, Senior Analyst, JA-40, Washington, DC
         Farrin Tamaddon, Analyst, JA-40, Fort Worth, TX
         David Pouliott, Program Director, JA-40, Washington, DC
         Jean Tanaka, Analyst, JA-40, Washington, DC
         Daniel Ben-Zadok, Analyst, JA-40, Washington, DC
         Michael Masoudian, Analyst, JA-40, Washington, DC
         Darren Murphy, Program Director, JA-10, Seattle, WA


                             2009 Awards
                                  Awards and Recognition    98
        Charles Ward, Project Manager, JA-10, Seattle, WA
        Deborah Kloppenburg, Senior Auditor, JA-10, Seattle, WA
        Diana Brattain, Auditor, JA-10, Seattle, WA
        Susan Zimmerman, Auditor, JA-10, Seattle, WA
        Susan Cohen, Analyst, JA-40, Seattle, WA
        Mitchell Behm, Program Director, JA-50, Washington, DC
        Betty Krier, Project Manager, JA-50, Washington, DC
        Marjorie Tsaousis, Analyst, JA-50, Washington, DC
        Matthew Williams, Analyst, JA-50, Washington, DC
        Rebecca McKnight, Analyst, JA-50, Washington, DC
        Lindsay Steward, Analyst, JA-50, Washington, DC
        Terrence Letko, Program Director, JA-60, Washington, DC
        Kenneth Prather, Program Director, JA-60, Washington, DC
        Aisha Evans, Auditor, JA-60, Washington, DC
        Amanda Watson, Auditor, JA-60, Washington, DC
        Ingrid Harris, Project Manager, JA-20, Baltimore, MD
        Earl Hedges, Program Director, JA-20, Baltimore, MD
        Louis King, Program Director, JA-20, Washington, DC
        Jim Crumpacker, Director, JI-3, Washington, DC
        William Owens, Senior Special Agent, JI-2, Washington, DC
        Madeline Chulumovich, Special Assistant for Economic Recovery, J-2, Washington,
        DC
        Wendy Harris, Project Manager, J-2, Washington, DC


Highway Trust Fund Solvency Team
In recognition of outstanding accomplishments in providing Congress critical analyses
of the cash shortfall confronting the Highway Trust Fund.


        Mitchell Behm, Program Director, JA-50, Washington, DC
        Jaydeep Borwankar, Project Manager, JA-50, Washington, DC
        Meredith McDaniel, Analyst, JA-50, Washington, DC
        Michael Broadus, Analyst, JA-50, Washington, DC
        Tyrone Sharpe, Economist, JA-50, Washington, DC
        Sandra Menjivar, Analyst, JA-50, Washington, DC




                            Semiannual Report to Congress      99
Computer Crimes Unit Team
In recognition of advancing investigations through computer forensic analysis
and helping to identify and neutralize cyber attacks against the Department of
Transportation’s Information Technology infrastructure.


         William Swallow, Senior Special Agent, JI-2, March Air Reserve Base, CA
         Carlos Vazquez, Special Agent, JI-2, Lakewood, CO
         Robert Mancuso, Special Agent, JI-2, Washington, DC
         Bradley Dunn, Special Agent, JI-2, Washington, DC
         Richard McGrade, Special Agent, JRI-2, New York, NY
         Jill Dempsey, Special Agent, JRI-2, King of Prussia, PA
         Corry Noel, Special Agent, JRI-4, Atlanta, GA
         Timothy Arnold, Special Agent, JRI-4, Miami, FL
         Kent Byers, Special Agent, JRI-5, Chicago, IL
         Jacquie Wente, Special Agent, JRI-5, Chicago, IL
         Floyd Sherman, Special Agent, JRI-6, Fort Worth, TX


Platinum Jet Arrest Team
In recognition of outstanding efforts, tactical skills, and teamwork in safely executing
a series of arrest warrants in a major charter jet safety investigation.


         Douglas Shoemaker, Assistant Special Agent-In-Charge, JRI-2, New York, NY
         Marlies Gonzalez, Assistant Special Agent-In-Charge, JRI-4, Miami, FL
         Richard McGrade, Special Agent, JRI-2, New York, NY
         Daniel Helzner, Special Agent, JRI-2, New York, NY
         Matthew Farrugia, Special Agent, JRI-2, New York, NY
         Robert Stanek, Special Agent, JRI-2, New York, NY
         Craig Furey, Special Agent, JRI-2, New York, NY
         Mona Sterlacci, Special Agent, JRI-2, New York, NY
         Gerard Tucker, Special Agent, JRI-2, New York, NY
         Michael Purcell, Special Agent, JRI-2, King of Prussia, PA
         Robert Brautigam, Special Agent, JRI-2, King of Prussia, PA
         Glenda White, Special Agent, JRI-4, Jacksonville, FL
         Megan France, Special Agent, JRI-4, Charlotte, NC
         Vivian Vega-Zacherl, Special Agent, JRI-4, Miami, FL


                             2009 Awards
                                  Awards and Recognition    100
        Steven DeFazio, Special Agent, JRI-4, Miami, FL
        Santos Ramirez, Special Agent, JRI-4, Miami, FL
        Timothy Arnold, Special Agent, JRI-4,Miami, FL
        Tammie McCravy, Special Agent, JRI-4, Atlanta, GA


Cargoland Team
In recognition of exemplary teamwork in the investigation and arrest of brokers in a
complex cargo fraud scheme.


        Hank Smedley, Special Agent-In-Charge, JRI-9, San Francisco, CA
        William Swallow, Senior Special Agent, JI-2, March Air Reserve Base, CA
        Normalyn Harris, Assistant Special Agent-In-Charge, JRI-9, Cerritos, CA
        Ashley Strickland, Special Agent, JRI-9, Cerritos, CA
        Efferem Poynter, Senior Special Agent, JRI-9, San Francisco, CA
        Lisa Glazzy, Senior Special Agent, JRI-9, San Francisco, CA
        Steven Schleyer, Senior Special Agent, JRI-9, San Francisco, CA
        Katherine Kerkhoff, Special Agent, JRI-9, San Francisco, CA
        Boris Prentiss, Senior Special Agent, JRI-9, Cerritos, CA
        Fannie Robinson, Investigative Program Technician, JRI-9, Cerritos, CA
        Wayne Nomi, Senior Special Agent, JRI-9, Cerritos, CA
        Floyd Sherman, Senior Special Agent, JRI-6, Fort Worth, TX
        Charles Miller, Senior Special Agent, JRI-6, Fort Worth, TX
        Anthony Sartin, Senior Special Agent, JRI-5, Chicago, IL
        Ronald Cheng, Assistant U.S. Attorney, California




                           Semiannual Report to Congress      101
      Council of the Inspectors General on Integrity and
                      Efficiency Awards
Award for Excellence – Audit

    U.S. Department of Transportation, Office of Inspector General Lower
    Manhattan Recovery Projects Team
    This team received this award in recognition of outstanding efforts to improve
    stewardship of the Federal investment in the Lower Manhattan Recovery Projects.


            Thomas Yatsco, Program Director
            George Lavanco, Project Manager
            Timothy Keane, Senior Analyst
            Eileen Merritt, Senior Analyst
            Rosa Scalice, Auditor
            Joseph Tschurilow, Auditor




                              2009 Awards
                                   Awards and Recognition    102
Award for Excellence – Investigation

    Airlines Price-Fixing Investigation and Prosecution Team
    This team received this award in recognition of the team’s exemplary efforts to
    investigate and prosecute major domestic and international airlines engaged in a
    price-fixing scheme, netting $1.6 billion in recoveries to date.


            Elise Woods, Assistant Special Agent-In-Charge
            Malik Freeman, Supervisory Special Agent
            Pamela Castleberry, Senior Special Agent
            Jameel Bagby, Special Agent
            Bradley Dunn, Special Agent
            Elizabeth Aloi, Attorney, DOJ
            Rochelle Bozman, Attorney, DOJ
            William Dillon, Attorney, DOJ
            Mark Grundvig, Attorney, DOJ
            Richard Hamilton, Attorney, DOJ
            Katie Hellings, Attorney, DOJ
            Meagan Johnson, Attorney, DOJ
            Jason Katz, Attorney, DOJ
            Brooks Mackintosh, Attorney, DOJ
            Nancy McMillen, Attorney, DOJ
            Carsten Reichel, Attorney, DOJ
            Mark Rosman, Attorney, DOJ
            Katherine Schlech, Attorney, DOJ
            Brent Snyder, Attorney, DOJ
            Deana Timberlake-Wiley, Attorney, DOJ
            Frank Vondrak, Attorney, DOJ
            Michael Whitlock, Attorney, DOJ
            Linna Mohler, Special Agent, FBI
            Paul Geboski, Special Agent, FBI
            Julie Neiger, Special Agent, FBI
            Sherri Queener, Special Agent, FBI
            James Haughton, Special Agent, U.S. Postal Service OIG




                             Semiannual Report to Congress      103
2009 Awards and Recognition    104
                                                      Mission and Organization


The Office of Inspector General for the Department of Transportation was created by Congress through
the Inspector General Act of 1978 (Public Law 95-452). The Act sets several goals for OIG:


 •   To conduct or supervise objective audits and investigations of the Department’s programs and
     operations;
 •   To promote economy, effectiveness, and efficiency within the Department;
 •   To prevent and detect fraud, waste, and abuse in the Department’s programs;
 •   To review existing and proposed laws or regulations affecting the Department and make recom-
     mendations about them;
 •   To keep the Secretary of Transportation and Congress fully informed about problems in depart-
     mental programs and operations.

The Inspector General is committed to fulfilling its statutory responsibilities and assisting members
of Congress, the Secretary, senior Department officials, and the general public in achieving a safe,
efficient, and effective transportation system.

OIG is divided into two major units – audits and investigations - and three support units.




The major units are:

Audits and Evaluations
The Office of the Principal Assistant Inspector General for Auditing and Evaluations.

This office supervises and conducts all audit activities related to DOT programs and operations. This
office is divided according to specific DOT program areas into 5 sub-offices. The areas covered by
these offices are Aviation and Special Programs; Financial and Information Technology, Highway and
Transit Programs, Rail and Maritime programs and Economic Analysis, and Acquisition and Procure-
ment. Audit staff are located in headquarters and field offices across the country.




                                   Semiannual Report to Congress      105
Investigations
The Office of the Principal Assistant Inspector General for Investigations.

This office supervises and conducts OIG investigative activities related to DOT programs and opera-
tions. This office is divided according to geographical areas with 7 major regional office locations
across the country except for one office located in HQ which conducts nationwide special investiga-
tions and analysis as well as managing the OIG Hotline Complaint Center and activities generated by
the complaints.




The support units are:

The Office of the Assistant Inspector General for Legal, Legislative and External Affairs.

This office provides a full-range of professional legal services and advice, facilitates communications
with Congress, and manages public and external affairs.

The Office of the Assistant Inspector General for Administration.

This office is divided into 4 sub-offices. They are the Office of Procurement and Administrative Ser-
vices, the Office of Budget and Financial Management, the Office of Human Resources, and the Office
of Information Technology Management.

The Office of Quality Assurance Reviews and Internal Affairs.

This office under the direction of the Deputy Inspector General ensures that internal operations and
functions are performed objectively and in an efficient and effective manner.




                                     Mission and Organization    106
                                                      Inspector General




                                                           Deputy
                                                      Inspector General




     Principal                             Principal Assistant       Assistant Inspector
                                                                                                Assistant Inspector
Assistant Inspector                        Inspector General          General for Legal,
                                                                                                    General for
    General for                              for Auditing &            Legislative, and
                                                                                                  Administration
  Investigations                               Evaluation              External Affairs




    Assistant             Assistant            Assistant             Assistant             Assistant             Assistant
    Inspector             Inspector            Inspector             Inspector             Inspector
                                                                                                                 Inspector
   General for           General for          General for           General for        General for Rail &
                                                                                                                General for
   Washington              Aviation            Financial              Highway              Maritime
                                                                                         Programs and          Acquisition &
  Investigative           & Special          & Information           & Transit
                                                                                       Economic Analysis       Procurement
   Operations            Programs             Technology            Programs




                      Deputy Assistant                           Deputy Assistant
                          Inspector                                 Inspector
                         General for                             General for High-
                      Aviation & Special                          way & Transit
                          Programs                                  Programs




                                           Semiannual Report to Congress      107
                              Contacts
Inspector General
Calvin L. Scovel III ……………………………………………………………… (202) 366-1959

Deputy Inspector General
Ann Calvaresi-Barr ……………………………………………………………… (202) 366-6767

Assistant Inspector General for Legal, Legislative, and External Affairs
Brian A. Dettelbach …………………………………………………………… (202) 366-8751

Principal Assistant Inspector General for Auditing and Evaluation
Lou Dixon………………………………………………………………………… (202) 366-1427

Assistant Inspector General for Investigations
Timothy Barry …………………………………………………………………… (202) 366-1967

Assistant Inspector General for Washington Investigative Operations
Robert Westbrooks (Acting) …………………………………………………… (202) 366-1972

Assistant Inspector General for Aviation and Special Programs
Vacant …………………………………………………………………………… (202) 366-0500

Deputy Assistant Inspector General for Aviation and Special Programs
Matt Hampton …………………………………………………………………… (202) 366-1987

Assistant Inspector General for Financial and Information Technology
Rebecca C. Leng ……………………………………………………………… (202) 366-1407

Assistant Inspector General for Highway and Transit Programs
Joe Come ……………………………………………………………………… (202) 366-5630

Deputy Assistant Inspector General for Highway and Transit Programs
Rosalyn Millman ………………………………………………………………… (202) 366-5630

Assistant Inspector General for Rail and Maritime Programs and Economic Analysis
Mitchell Behm …………………………………………………………………… (202) 366-9970

Assistant Inspector General for Acquisition and Procurement
Mark Zabarsky ………………………………………………………………… (202) 366-5225

Assistant Inspector General for Administration
Susan Dailey …………………………………………………………………… (202) 366-1748



                                Contacts      108
   U.S. Department of Transportation
        Office of Inspector General
      1200 New Jersey Avenue, S.E.
         Washington, D.C. 20590


Hotline to report fraud, waste, and abuse:
          Phone: 800-424-9071
        Email: hotline@oig.dot.gov
   OIG Website: http://www.oig.dot.gov
